<html>
<title> - WHAT ARE THE ADMINISTRATION PRIORITIES FOR CLIMATE CHANGE TECHNOLOGY?</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                              WHAT ARE THE
                     ADMINISTRATION PRIORITIES FOR
                       CLIMATE CHANGE TECHNOLOGY?

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 6, 2003

                               __________

                           Serial No. 108-35

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science


                                 ______

90-165              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
RANDY NEUGEBAUER, Texas
                                 ------                                

                         Subcommittee on Energy

                     JUDY BIGGERT, Illinois, Chair
CURT WELDON, Pennsylvania            NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JERRY F. COSTELLO, Illinois
VERNON J. EHLERS, Michigan           LYNN C. WOOLSEY, California
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       MICHAEL M. HONDA, California
W. TODD AKIN, Missouri               BRAD MILLER, North Carolina
MELISSA A. HART, Pennsylvania        LINCOLN DAVIS, Tennessee
PHIL GINGREY, Georgia                RALPH M. HALL, Texas
JO BONNER, Alabama
SHERWOOD L. BOEHLERT, New York
               KEVIN CARROLL Subcommittee Staff Director
         TINA M. KAARSBERG Republican Professional Staff Member
           CHARLES COOKE Democratic Professional Staff Member
                    JENNIFER BARKER Staff Assistant
                   KATHRYN CLAY Chairwoman's Designee


                            C O N T E N T S

                            November 6, 2003

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Judy Biggert, Chairman, Subcommittee 
  on Energy, Committee on Science, U.S. House of Representatives.     8
    Written Statement............................................     9

Statement by Representative Nick Lampson, Minority Ranking 
  Member, Subcommittee on Energy, Committee on Science, U.S. 
  House of Representatives.......................................    10
    Written Statement............................................    11

                               Witnesses:

Mr. David Conover, Director, Climate Change Technology Program, 
  U.S. Department of Energy
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Mr. George Rudins, Deputy Assistant Secretary for Coal and Power 
  Systems, U.S. Department of Energy
    Oral Statement...............................................    17
    Written Statement............................................    18
    Biography....................................................    22

Dr. Sally M. Benson, Deputy Director for Operations, Lawrence 
  Berkeley National Laboratory
    Oral Statement...............................................    23
    Written Statement............................................    25
    Biography....................................................    27
    Financial Disclosure.........................................    28

Dr. Marilyn A. Brown, Energy Efficiency and Renewable Energy 
  Program, Oak Ridge National Laboratory
    Oral Statement...............................................    29
    Written Statement............................................    31
    Biography....................................................    36

Discussion.......................................................    36

             Appendix 1: Additional Material for the Record

Letter to Robert Card from Chairman Boehlert and Chairman 
  Biggert, dated October 17, 2003................................    56

Letter to Chairman Boehlert from Robert Card, dated November 6, 
  2003...........................................................    58

Report on Responses to the Request for Information Regarding the 
  National Climate Change Technology Initiative, U.S. Department 
  of Energy......................................................    60

 
 WHAT ARE THE ADMINISTRATION PRIORITIES FOR CLIMATE CHANGE TECHNOLOGY?

                              ----------                              


                       THURSDAY, NOVEMBER 6, 2003

                  House of Representatives,
                            Subcommittee on Energy,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:10 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Judy 
Biggert [Chairwoman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                         SUBCOMMITTEE ON ENERGY

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                              What Are the

                     Administration Priorities for

                       Climate Change Technology?

                       thursday, november 6, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

Purpose

    On Thursday, November 6, 2003 at 10:00 a.m., the Energy 
Subcommittee of the House Science Committee will hold a hearing to 
examine the Administration's progress on its climate change technology 
programs.
    The Administration is significantly behind its own schedule for 
developing a climate technology research and development (R&D) plan. 
Meanwhile, the Administration is emphasizing one particular R&D project 
related to carbon sequestration, which raises several fundamental 
policy and budget questions. (See below.)

Witnesses

    The following witnesses will testify at the hearing:

Mr. David Conover is the Director of the interagency Climate Change 
Technology Program (CCTP) housed at the Department of Energy (DOE). 
Previously, he was Republican Staff Director & Chief Counsel of the 
Senate Environment and Public Works Committee. Mr. Conover holds a J.D. 
from the Georgetown University Law Center.

Mr. George Rudins is the Deputy Assistant Secretary for Coal and Power 
Systems at the U.S. Department of Energy.

Dr. Sally Benson is Deputy Director for Operations at Lawrence Berkeley 
National Laboratory (LBNL) and director of the Geological-Sequestration 
(GEO-SEQ) Project supported by the Office of Fossil Energy. She was the 
Division Director for Earth Sciences at LBNL from 1993 to 2001. She is 
a coordinating lead author on the geologic storage chapter of the 
Intergovernmental Panel on Climate Change (IPCC) study related to 
CO<INF>2</INF> Capture and Storage.

Dr. Marilyn Brown is the Director of Energy Efficiency and Renewable 
Energy at the Oak Ridge National Laboratory (ORNL). Dr. Brown recently 
co-led ``Scenarios for a Clean Energy Future,'' a planning exercise 
that examined the potential role of hundreds of technologies in 
reducing carbon dioxide emissions over the next two decades. Dr. Brown 
serves on the Board of Directors of the Alliance to Save Energy and the 
National Commission on Energy Policy.

Overarching Questions

    The hearing will address the following overarching questions:

        1.  What milestones has the Administration set for its climate 
        change technology programs? How are the Administration's goals 
        for its climate change technology development programs linked 
        to its goal of achieving atmospheric stabilization of 
        greenhouse gases, or to achieving its greenhouse gas intensity 
        goal?

        2.  How does the Administration determine which energy 
        technologies qualify as climate change technologies? How does 
        the Administration set R&D investment priorities among these 
        technologies? What weight should be given to non-climate 
        benefits such as improved economic efficiency, reduced 
        emissions of criteria pollutants, and enhanced energy security?

        3.  Why has the Department decided to place so much emphasis on 
        geological sequestration of carbon, a technology that is less 
        likely than other technologies to have benefits unrelated to 
        climate change?

Overview

        <bullet>  On June 11, 2001, President Bush announced the 
        creation of two initiatives to address climate change: the 
        Climate Change Research Initiative (CCRI) to address areas of 
        scientific uncertainty, and the National Climate Change 
        Technology Initiative (NCCTI) to support applied research and 
        demonstration projects.\1\ At the working level, the CCRI was 
        to be headed by the Department of Commerce, and the NCCTI was 
        to be headed by the Department of Energy. The CCRI has since 
        been renamed the Climate Change Science Program (CCSP), and 
        NCCTI has since been renamed the Climate Change Technology 
        Program (CCTP).
---------------------------------------------------------------------------
    \1\ ``President Bush Discusses Global Climate Change,'' http://
www.whitehouse.gov/news/releases/2001/06/20010611-2.html.

        <bullet>  The science initiative has made significant progress 
        over the last two years. The CCRI released an interagency 
        inventory of science activities in July 2002, and a draft 
        strategic plan in the fall of 2002. After extensive public 
        comment, it released its final strategic plan and program plan 
---------------------------------------------------------------------------
        in July 2003.

        <bullet>  In contrast, the Climate Change Technology Program 
        has not yet released a review of existing climate-related 
        programs or a strategic plan for technology programs. In 
        discussions with Science Committee, DOE Under Secretary Robert 
        Card indicated that a draft plan for the CCTP would be released 
        by July 2002. Under Secretary Card testified to the Committee 
        in February 2003 that a review of climate change technology 
        programs would be complete by the summer of 2003, but that 
        deadline has passed as well.

        <bullet>  The Administration's criteria for selecting and 
        prioritizing climate change technology projects have not been 
        released for public comment.

        <bullet>  In February 2003, the Department announced a new ten-
        year, $1 billion project, FutureGen, which is to build a 
        prototype plant that would combine the production of hydrogen 
        and electricity from coal with geologic sequestration of 
        carbon.

        <bullet>  On September 30, 2003, the White House Council on 
        Environmental Quality (CEQ) released a fact sheet outlining the 
        Administration's climate change initiatives. The fact sheet 
        featured three major initiatives: the Hydrogen Initiative (the 
        DOE program designed to develop hydrogen-based fuels and cars); 
        the international fusion experimental reactor known as ITER; 
        and FutureGen. All three of these initiatives involve 
        technologies that are not expected to be available for 
        widespread use for at least 10 or 20 years.

Current Issues

What criteria are being used by the Administration to determine which 
climate technology projects to undertake and are those the right 
criteria?

    Most experts recommend that a climate technology R&D portfolio be 
balanced between shorter- and longer-term projects and among different 
types of technologies, and that it be able to accommodate a variety of 
energy price and regulatory scenarios. The projects that the 
Administration labels as climate change technology are all longer-term, 
but DOE does fund a wide variety of other R&D (e.g., energy efficiency) 
that could have an impact on greenhouse gas emissions.

How do the CCTP and other climate technology programs relate to the 
Administration's stated greenhouse gas emissions goals?

    On February 14, 2002, President Bush announced the Administration's 
goal of reducing U.S. greenhouse gas emission intensity (the amount of 
emissions per unit of production) by 18 percent by the year 2012. 
According to Energy Information Administration (EIA) estimates, U.S. 
emissions intensity will decrease by 14 percent by the year 2012 in the 
absence of further action. Thus, the Administration goal requires a 
reduction in emissions intensity of four percent over ten years 
compared to the baseline case.
    In the same speech, the President stated that the goal of U.S. 
climate policy was to stabilize greenhouse gas concentrations in the 
atmosphere, but did not say at what concentration level or by what 
date.
    The Administration has given conflicting information about whether 
the objectives of its climate change technology initiatives will be 
linked to its broader climate goals. The Administration has also not 
identified the milestones it will use to evaluate the progress made 
under its climate change technology programs.

What were the criteria used to select carbon sequestration as a major 
climate change technology initiative?

    Carbon sequestration technologies refer to mechanisms designed to 
capture carbon emissions and store the carbon to prevent it from 
entering the atmosphere. Possible carbon sequestration methods include 
piping carbon dioxide deep into the ocean or underground into geologic 
formations. The latter approach is referred to as ``geologic 
sequestration.''
    Carbon sequestration is significantly less mature than many other 
technologies that could reduce greenhouse gas emissions, such as 
renewable energy and energy efficiency technologies, and there are 
fundamental questions that still require research on such matters as 
the safety and long-term stability of geologic sequestration.
    Moreover, carbon sequestration is harder to characterize as part of 
a ``no regrets'' strategy--that is a climate change strategy that 
provides benefits to the environment and the economy regardless of 
whether human-induced climate change turns out to be a significant 
problem. For example, renewable energy and energy efficiency 
technologies can reduce emissions of pollutants and dependence on 
foreign oil, as well as reducing greenhouse gas emissions.

Background

What is the Department of Energy spending on climate change 
        technologies?
    It depends on what is considered a climate change technology--a 
question made more difficult by the lack of any plan for the CCTP. The 
Department of Energy spent $2.7 billion in fiscal year (FY) 2002 on 
applied energy research, development, and deployment programs. In a 
report to Congress, the Office of Management and Budget estimated that 
in FY 2002 the government spent more than $3.7 billion on climate 
change technologies, with $1.6 billion (43 percent of the total) spent 
at the Department of Energy.\2\
---------------------------------------------------------------------------
    \2\ Fiscal Year 2004 Report to Congress on Federal Climate Change 
Expenditures, Office of Management and Budget.
---------------------------------------------------------------------------
What is FutureGen?
    In February 2003, Secretary of Energy Spencer Abraham announced the 
FutureGen initiative, a $1 billion, ten-year government-industry 
partnership. The goal of the initiative is to build a prototype coal-
fired power plant that would combine electricity and hydrogen 
production with geologic sequestration of carbon dioxide 
(CO<INF>2</INF>).
    The FutureGen project would combine an Integrated Gasification 
Combined Cycle (IGCC) mid-sized coal plant (275 megawatts) with 
processes to separate, capture, and permanently store the CO<INF>2</INF> 
emitted by the plant. Separating out the carbon would leave a stream of 
hydrogen-rich gas that could then be combusted in a turbine, used in a 
fuel cell, or fed into a refinery to upgrade petroleum products. Once 
captured, the CO<INF>2</INF> would be injected deep underground into a 
geologic reservoir.
    Experts in geologic sequestration emphasize that the selection of 
an appropriate site will be critical to the success of the FutureGen 
project. For a site to be considered appropriate it would have to 
provide a high degree of confidence that the CO<INF>2</INF> would be 
permanently isolated from the atmosphere. An exceedingly small (less 
than 0.1 percent per year) leak rate for the stored CO<INF>2</INF> 
would likely be needed to ensure the intended climate mitigation 
benefits. Other important siting considerations include public safety 
and the ability to build comparable plants elsewhere using similar 
geologic formations.
    One concern with the FutureGen project is that it focuses on 
building an actual plant while much basic research may still need to be 
done to answer fundamental questions about the nature and feasibility 
of geologic sequestration.
What technological developments will geologic sequestration of CO<INF>2</INF> 
        require?
    The technology to inject CO<INF>2</INF> into geologic formations, 
developed for enhanced oil recovery is mature and directly applicable 
to carbon sequestration. However, far less is known about whether 
CO<INF>2</INF> can be stored successfully for long periods of time 
underground in petroleum-bearing rock formations. Moreover, still less 
is known about how to store CO<INF>2</INF> in other, more common types 
of geologic formations, such as saline aquifers (underground rock 
formations containing salt water).
    Only one large-scale demonstration of carbon sequestration in a 
saline aquifer has been done worldwide. This project, owned and 
operated by Statoil, Norway's state oil company, has injected about a 
million tons of CO<INF>2</INF> into the Sleipner aquifer below the 
North Sea since 1996. The Sleipner aquifer is an uncommon formation, 
and it is unclear if the lessons learned on that project will be widely 
applicable.
    Three types of reservoirs are candidates for geologic 
sequestration: depleted oil and gas fields, unmineable coal beds, and 
saline aquifers. Characterizing these reservoirs--their geologic 
stability, their capacity to absorb CO<INF>2</INF>, and their rates of 
CO<INF>2</INF> leakage--will be one of the primary technical challenges 
to geologic sequestration.
    Depleted oil and gas fields are known to be geologically stable to 
a high degree of certainty. Carbon storage in these fields builds on 
extensive experience with enhanced oil recovery using CO<INF>2</INF>. 
But depleted oil and gas fields are relatively few in number, and at 
current rates of CO<INF>2</INF> generation from energy use, all such 
reservoirs would be filled in a matter of decades.
    Injecting CO<INF>2</INF> into unmineable coal seams could provide 
carbon storage along with economic benefits through methane generation. 
Carbon dioxide injected into the seam dislodges methane that is adhered 
to the surface of the coal, leaving the methane free to flow out of the 
seam. A pilot project of CO<INF>2</INF>-assisted coal bed methane 
production has been underway in the San Juan Basin, New Mexico, since 
1996.
    Saline aquifers are plentiful throughout North America, and in 
theory could provide enough storage for carbon generated over 
centuries. Carbon dioxide injected into the aquifers either slowly 
dissolves into the water within, or is converted to a mineral form over 
decades. Technical questions remain about the long-term stability of 
this type of carbon storage. Further work is needed to determine 
leakages rate into drinking water and the atmosphere.
    Another crucial area for further technical work is the development 
of adequate, cost-effective monitoring systems. Monitoring of 
subsurface CO<INF>2</INF> flows will be essential to ensuring that the 
CO<INF>2</INF> contained in the reservoirs remains isolated from the 
atmosphere. Monitoring is also important for achieving public 
acceptance of geological sequestration. In large concentrations, 
CO<INF>2</INF> is an asphyxiant. Long-term carbon storage will require 
sophisticated monitoring devices to detect escaping CO<INF>2</INF> 
before dangerous concentrations accumulate.
How are hydrogen technologies related to climate change?
    The FutureGen project will be designed to produce hydrogen, which 
would help accomplish the Administration goal of moving toward a 
``hydrogen economy.'' Hydrogen is not a greenhouse gas, and has no 
known detrimental effects on the environment. Hydrogen can be produced 
from many sources other than coal with far fewer environmental 
concerns. Some experts believe that the Administration may be placing 
too much emphasis on producing hydrogen from coal.

Questions for Witnesses

    In the invitation to testify, the witnesses were asked to address 
the following questions:
Mr. Dave Conover

        1.  When will the Administration release for public comment its 
        draft strategy for the Climate Change Technology Program 
        (CCTP)? What milestones has the Administration set for its 
        climate change technology programs?

        2.  What were the total federal expenditures on climate change 
        technologies in fiscal year 2003? Please include a breakdown of 
        these expenditures by agency, or by project. What are the 
        proposed expenditures for fiscal year 2004?

        3.  How are the Administration's goals for climate change 
        technology development linked to achieving its stated 
        greenhouse gas intensity goal, or to its stated goal of 
        achieving atmospheric stabilization of greenhouse gases? What 
        is the timeline for the latter goal?

        4.  How does the Administration determine which energy 
        technologies qualify as climate change technologies? How does 
        the Administration set R&D investment priorities among these 
        technologies? What weight should be given to non-climate 
        benefits such as improved economic efficiency, reduced 
        emissions of criteria pollutants, and enhanced energy security?

        5.  Why has the Department decided to place so much emphasis on 
        geological sequestration of carbon, a technology that is poorly 
        understood and is less likely than other technologies to have 
        benefits unrelated to climate change?

Mr. George Rudins

        1.  What are the most important outstanding technical issues 
        associated with geologic sequestration of carbon dioxide? What 
        technical questions will the FutureGen project be designed to 
        address? Is our state of knowledge sufficient to proceed with a 
        full-scale carbon sequestration demonstration project?

        2.  How did the Department choose the scale and scope of 
        FutureGen? How did the Department determine the cost of this 
        project? What levels of funding will be provided by industry 
        and international partners?

        3.  What factors will the Department consider in selecting 
        geological sites for carbon sequestration projects and 
        experiments? What work should be done prior to selection of the 
        FutureGen site?

Dr. Sally Benson

        1.  What are the most important outstanding technical issues 
        associated with geologic sequestration of carbon dioxide 
        (CO<INF>2</INF>)? Please describe the geologic, environmental, 
        economic, and technical uncertainties. What portion of these 
        uncertainties could be reduced through additional research?

        2.  Is our state of knowledge sufficient to proceed with a 
        full-scale carbon sequestration demonstration project? By 
        concentrating funding in one large project, do we run the risk 
        of moving to large-scale sequestration before the technical 
        uncertainties have been adequately addressed?

        3.  What factors should the Department consider in selecting 
        geological sites for carbon sequestration projects and 
        research? What work should be done prior to selection of the 
        FutureGen site?

        4.  What are the costs of CO<INF>2</INF> injection? How 
        directly do the injection technologies developed for secondary 
        recovery of oil apply to the injection of CO<INF>2</INF> for 
        sequestration?

Dr. Marilyn Brown

        1.  How would you define a well-balanced climate change 
        technology portfolio for the U.S.? Are there climate change 
        technologies that you feel the Administration should give 
        greater emphasis? What evidence do we have that R&D investments 
        in greenhouse gas mitigation technologies can deliver products 
        that industry, businesses, and consumers will choose to use?

        2.  If we counted the non-climate benefits of federal climate 
        change R&D investments, such as improved economic efficiency, 
        reduced emissions of criteria pollutants, and enhanced energy 
        security, would we be making the same investments we are now 
        making?

        3.  The ``no regrets'' strategy pursued in the George Herbert 
        Walker Bush Administration targeted cost-effective energy 
        efficiency measures as the first priority in funding projects 
        to reduce greenhouse gas (GHG) emissions. What are our best 
        quantitative estimates of the benefits from a concerted 
        investment in cost-effective energy efficiency technologies? 
        Please include estimates of emissions reductions, improvements 
        in GHG intensity, and reductions in criteria pollutants, and 
        economic benefits.
    Chairwoman Biggert. The hearing will come to order. I want 
to welcome everyone here today to this hearing of the Energy 
Subcommittee, the purpose of which is to review the 
Administration's progress on its climate change technology 
programs.
    On June 11, 2001, President Bush announced the creation of 
two initiatives to address climate change, the Climate Change 
Research Initiative, CCRI, to address areas of scientific 
uncertainty, and the National Climate Change Technology 
Initiative, now known simply as the Climate Change Technology 
Program, or CCTP, to support applied research and technology 
demonstration project. The Administration has made significant 
progress over the last two years with respect to the science 
initiative releasing in July, 2002, an inventory of science 
activities across agencies that will fill the gaps in our 
understanding of climate change. After extensive public 
comment, it released a final strategic plan and program in July 
of 2003.
    In contrast, the Climate Change Technology Program is still 
at the study line. The Administration charged the Department of 
Energy with leading the interaction CCTP effort back in July of 
2001. Since then, we have asked the Department for a report on 
its Climate Change Technology Initiative, and today, we did 
receive the first down payment, or the first installment of the 
report, and I hope that this will be addressed in somewhat in 
the hearing today.
    Since I have not had a chance to read it, it is hot off the 
press, nor have the other Members, so--but I would ask 
unanimous consent to include the report in the record at this 
time. So ordered.
    [The information referred to appears in the Appendix.]
    Chairwoman Biggert. The pieces that we have already had 
included, the President's Hydrogen Initiative, the subject of a 
hearing by the Full Science Committee earlier this year and one 
of the Administration's major actions relating to climate 
change, according to the White House Council on Environmental 
Quality. Another big piece that we are aware of is the 
FutureGen, a new 10 year, $1 billion project to generate 
hydrogen electricity from coal while sequestering the carbon 
and geological formations. This will enable DOE to demonstrate 
on a large scale that existing sequestration technologies and 
perhaps those still under development work on the ground, or 
perhaps I should say work in the ground and work well enough to 
convince investors to put their money into what hopefully 
becomes the next generation of coal power plants.
    While we are talking about hydrogen, FutureGen, or 
sequestration, these initiatives could pay off substantially in 
the long-term, not only by reducing emissions, the greenhouse 
gases, but also by improving America's energy independence. In 
the short-term, there is much more R&D already underway at the 
DOE and other federal agencies that could result in 
technologies with immediate climate change benefits. Is this 
R&D and our resulting technologies a part of the DOE's Climate 
Change Technology Program? If so, how did the DOE decide which 
technologies made the final cut for inclusion in the CCTP.
    But the questions don't stop here. How will FutureGen and 
carbon sequestration programs build off and complement DOE's 
existing energy efficiency and renewable energy programs. How 
will the technology milestones for these programs help us meet 
the President's goals of reducing the carbon intensity of our 
economy and stabilizing atmospheric concentration of greenhouse 
gases?
    I am asking these questions because I want the DOE to 
succeed. I think my colleagues here today share the sentiment. 
We want FutureGen, carbon sequestration and all of DOE's other 
climate change technologies to work and to work well. I think 
we can all agree that our investments in such technologies 
serve as a kind of insurance policy against climate change, 
supporting a diverse portfolio of climate change technologies 
such as energy efficiency, carbon sequestration and carbon 
neutral energy technologies, including even nuclear energy, 
will provide us with the most insurance coverage for the best 
price.
    I want to thank the witnesses for sharing their expertise 
with us today. I am confident that you can give us a first 
installment of DOE's plan and the promise of climate changes 
technologies like hydrogen, FutureGen and carbon sequestration. 
So I look forward to our discussion. The Chair now recognizes 
Mr. Lampson, the Ranking Minority Member on the Energy 
Subcommittee, for his opening statement.
    [The prepared statement of Chairman Biggert follows:]

              Prepared Statement of Chairman Judy Biggert

    The hearing will come to order.
    I want to welcome everyone to this hearing of the Energy 
Subcommittee, the purpose of which is to review the Administration's 
progress on its climate change technology programs.
    On June 11, 2001, President Bush announced the creation of two 
initiatives to address climate change: the Climate Change Research 
Initiative (CCRI) to address areas of scientific uncertainty, and the 
National Climate Change Technology Initiative, now known simply as the 
Climate Change Technology Program or CCTP, to support applied research 
and technology demonstration projects.
    The Administration has made significant progress over the last two 
years with respect to the science initiative, releasing in July 2002 an 
inventory of science activities across agencies that will fill the gaps 
in our understanding of climate change. After extensive public comment, 
it released a final strategic plan and program plan in July 2003.
    In contrast, the Climate Change Technology Program is still at the 
starting line. All we know is that the Administration charged the 
Department of Energy with leading the interagency CCTP effort back in 
July 2001. Since then, we have asked the Department on numerous 
occasions for a report on its climate change technology initiative, and 
it has promised to provide one. At this point, the DOE is significantly 
behind its own schedule to provide that report. We hope today to hear 
something about what that report will look like, and when we can expect 
to see it.
    Without this report, Congress is left to complete a puzzle for 
which we don't have the full picture, or all the pieces. The pieces we 
do have include the President's hydrogen initiative, the subject of a 
hearing by the Full Science Committee earlier this year, and one of the 
Administration's major actions relating to climate change according to 
the White House Council on Environmental Quality.
    Another big piece we are aware of is FutureGen, a new ten-year, $1 
billion project to generate hydrogen and electricity from coal while 
sequestering the carbon in geologic formations. This will enable DOE to 
demonstrate on a large scale that existing sequestration technologies, 
and those still under development, work ``on the ground''--or perhaps I 
should say, work ``in the ground''--and work well enough to convince 
investors to put their money into what hopefully becomes the next 
generation of coal power plant.
    Whether we are talking about hydrogen, FutureGen, or sequestration, 
these initiatives could pay off substantially in the long-term, not 
only by reducing emissions of greenhouse gases, but also by improving 
America's energy independence.
    In the short-term, there is much more R&D already underway at the 
DOE and other federal agencies that could result in technologies with 
immediate climate change benefits. Is this R&D, and are the resulting 
technologies, a part of the DOE's climate change technology program? If 
so, how did the DOE decide which technologies made the final cut for 
inclusion in the CCTP?
    But the questions don't stop there. How will FutureGen and carbon 
sequestration programs build off and complement DOE's existing energy 
efficiency and renewable energy programs? How will the technology 
milestones for these programs help us meet the President's goals of 
reducing the carbon intensity of our economy and stabilizing 
atmospheric concentrations of greenhouse gases?
    I am asking these tough questions because I want the DOE to 
succeed. I think my colleagues here today share that sentiment. We want 
FutureGen, carbon sequestration, and all of DOE's other climate change 
technologies to work and work well.
    I think we can all agree that our investments in such technologies 
serve as a kind of insurance policy against climate change. Supporting 
a diverse portfolio of climate change technologies such as energy 
efficiency, carbon sequestration, and carbon-neutral energy 
technologies--including even nuclear energy--will provide us with the 
most insurance coverage for the best price.
    I want to thank the witnesses for sharing their expertise with us 
today. Despite the absence of a report or plan for the CCTP, I am 
confident that you can give us at least a sneak preview of the DOE's 
plan, and the promise of climate change technologies like hydrogen, 
FutureGen, and carbon sequestration. I look forward to our discussion.

    Mr. Lampson. And I thank you, Chairwoman Biggert, for the 
time to speak this morning, and for your putting together this 
hearing, and I look forward to hearing the comments of all of 
our panelists.
    I know that when President Bush announced the criterion for 
two climate change initiatives in June of 2001, it was hoped 
that the Administration was beginning to focus on the climate 
change problem. And while the Science Initiative at the 
Department of Commerce has made a significant amount of 
progress since President Bush's speech, the Climate Change 
Technology Program at the Department of Energy has yet to share 
a view of--a review of existing programs, or a strategic plan 
with this Committee, and I understand that, you know, we have 
missed some deadlines and certainly this report this morning is 
helpful and shows the good faith that we, indeed, want, are 
most interested in, in as far as reaching the completion and 
completing the review of climate change programs, and we also 
do not yet know DOE's criteria for selecting and prioritizing 
these projects.
    In the meantime, the White House Council on Environmental 
Quality recently outlined the Administration's major climate 
change initiatives. These include the Hydrogen Fuels and Cars 
Initiative, the ITER Fusion Project and FutureGen, the billion 
dollar prototype plant that will combine the production of 
hydrogen and electricity from coal with geological 
sequestration of carbon, and I am hopeful that we can hear from 
our witnesses today about the criteria that this Administration 
is using to choose which climate technology projects should be 
pursued.
    I have concerns about pursuing research and development 
projects that are not expected to be available for widespread 
use for at least 10 or 20 years from now. We need to put more 
emphasis on technologies and energy efficiency which could have 
real benefits today. I am also anxious to learn what 
technological benefits the geologic sequestration of carbon 
will provide to help us in the climate change arena.
    Again, I thank our witnesses for joining us, and I look 
forward to learning more about the Administration's climate 
change--climate technology research and development plans, and 
I yield back my time.
    [The prepared statement of Mr. Lampson follows:]

           Prepared Statement of Representative Nick Lampson

    Chairwoman Biggert, thank you for holding this hearing today on the 
Administration's progress on its climate change technology programs. I 
look forward to hearing from our outstanding panel of witnesses today.
    When President Bush announced the creation of two climate change 
initiatives in June of 2001, it was hoped that the Administration was 
beginning to focus on the climate change problem.
    While the science initiative at the Department of Commerce has made 
a significant amount of progress since President Bush's speech--the 
Climate Change Technology Program at the Department of Energy has yet 
to share a review of existing programs or a strategic plan with this 
committee.
    It is my understanding that DOE has missed deadlines for releasing 
a draft plan for the program and completing the review of climate 
change programs.
    We also do not yet know DOE's criteria for selecting and 
prioritizing these projects.
    In the meantime, the White House Council on Environmental Quality 
recently outlined the Administration's major climate change 
initiatives.
    These include the Hydrogen fuels and cars initiative, the ITER 
fusion project, and FutureGen, the $1 billion prototype plant that will 
combine the production of hydrogen and electricity from coal with 
geological sequestration of carbon.
    I am hopeful that we can hear from our witnesses today about the 
criteria that this Administration is using to choose which climate 
technology projects should be pursued.
    I have concerns about pursuing research and development projects 
that are not expected to be available for widespread use for at least 
10 to 20 years.
    I am also anxious to learn what technological benefits the geologic 
sequestration of carbon will provide to help us in the climate change 
arena.
    Again I thank our witnesses for joining us today and I look forward 
to learning more about the Administration's climate technology research 
and development plans.

    Chairwoman Biggert. I would like to ask at this time for 
unanimous consent that all Members who wish to do so have their 
opening statements entered into the record. Without objection, 
so ordered.
    It is my pleasure to welcome our witnesses for today's 
hearing and to introduce them to you. They are Mr. David 
Conover, the Director of Interagency Climate Change Technology 
Program, CCTP, at the Department of Energy, welcome. And then, 
Mr. George Rudins, the Deputy Assistant Secretary for Coal and 
Power Systems at the Department of Energy, welcome to you. Dr. 
Sally Benson, Deputy Director for Operations at Lawrence 
Berkeley National Laboratory; and Dr. Marilyn Brown, the 
Director of Energy Efficiency and Renewable Energy at the Oak 
Ridge National Laboratory, welcome to you both.
    As the witnesses know, spoken testimony will be limited to 
five minutes each, after which the Members will have five 
minutes each to ask questions, so we will begin with Mr. 
Conover.

STATEMENT OF DAVID CONOVER, DIRECTOR, CLIMATE CHANGE TECHNOLOGY 
               PROGRAM, U.S. DEPARTMENT OF ENERGY

    Mr. Conover. Madam Chairman, Members of the Subcommittee, 
thank you for this opportunity to testify today on the Bush 
Administration's climate change technology priorities.
    The Climate Change Technology Program, or CCTP, is a multi-
agency research, development and deployment coordination 
activity, organized under the auspices of the Cabinet-level 
Committee on Climate Change, Science and Technology 
Integration. CCTP was established in 2002 to implement the 
President's National Climate Change Technology Initiative. By 
focusing federal RD&D programs on achieving the President's 
climate change goals, both near and long-term, our multi-agency 
organizational structure provides an opportunity across the 
Federal Government, to develop a coherent plan for climate 
change technology R&D.
    Our draft plan should be available in the first calendar 
quarter of 2004. As an initial part of the plan, we are 
establishing an inventory of climate change technology 
activities using a set of defined criteria. To be included in 
the CCTP inventory, R&D activities must be aimed at one or more 
of the following: current and future reductions in, or 
avoidances of greenhouse gas (GHG) emissions; greenhouse gas 
capture and/or long-term storage; conversion of greenhouse 
gases to beneficial uses in ways that avoid emissions to the 
atmosphere; monitoring and/or measurement of emissions, 
inventories and fluxes in a variety of settings; technologies 
that improve or displace other GHG-emitting technologies, 
thereby reducing emissions compared to technologies they 
displace; technologies that could enable or facilitate the 
development, deployment and use of other greenhouse gas 
emission reduction technologies; technologies that alter, 
substitute for, or otherwise replace processes, materials and/
or feed stocks, resulting in lower net emission of greenhouse 
gases; basic research activities undertaken explicitly to 
address a technical barrier to progress on one of the above 
climate change technologies; greenhouse gas emissions resulting 
from clear improvements in management practices.
    Using the inventory as a baseline, we will then apply 
principles to guide our investments. These principles include 
diversification, the logical sequencing of R&D investments, 
systems integration and planning in the face of uncertainty. 
Let me highlight three of those. Diversification is important 
for several reasons. The potential magnitude of the 
technological challenge posed by climate change makes it 
extremely unlikely that a single technology could meet the 
challenge on its own. A diversified portfolio is a hedge 
against the possibility that some advanced technologies may not 
be as successful as hoped, while others in the portfolio could 
exceed expectations. A diversified portfolio maintains the 
flexibility to respond to new information, and a diversified 
portfolio is better able to balance short and long-term 
objectives.
    The principle of sequencing R&D investments to quickly 
resolve critical uncertainties and to demonstrate early the 
feasibility of determinate technologies is also very important 
and helps explain our increased attention to carbon 
sequestration research. If large-scale geological sequestration 
is proved successful, then continued use of fossil fuels will 
be possible and future climate change strategies could be built 
on existing infrastructure, thus accelerating progress and 
avoiding the early, costly retirement of that infrastructure.
    If large-scale geologic sequestration were to prove 
unsuccessful, the longer-term climate change technology 
portfolio will need to place even more emphasis on energy 
efficiency and zero emissions technologies such as renewable 
energy and nuclear power.
    The principle of recognizing uncertainty and planning for 
the long-term requires a robust portfolio that can be 
successful under a number of economic and energy policy 
scenarios. While nearly all such scenarios rely heavily on 
further advances in energy efficiency, we will also need 
significant new sources of low carbon or zero carbon energy 
supply. Thus, some investments focus on development of low 
carbon fossil fuel technologies that employ sequestration. 
Others focus on building a new energy backbone, envisioning 
increased roles for renewable energy and advanced concepts for 
nuclear power.
    Some activities are long-term, more risky, but potentially 
transforming technologies, such as fusion energy and advances 
in biotechnology. We also want to ensure that innovative, 
cross-cutting technology ideas with significant potential to 
reduce, avoid, or sequester greenhouse gas emissions are not 
overlooked.
    Using these principles and the professional judgment of the 
interagency participants, the CCTP will assess the inventory of 
activities to clearly articulate priorities in the context of 
the President's FY 2005 budget. These will likely be consistent 
with the Administration's current priorities, such as the 
Hydrogen Fuel Initiative, FutureGen and fusion, which are well-
aligned with our planning principles and are highlighted in my 
written testimony.
    Madam Chairman and Members of the Subcommittee, these 
current priorities and other climate change technology efforts 
together constitute a diverse portfolio of energy technologies 
that has the potential to bring about dramatic improvements in 
our energy systems with significantly reduced greenhouse gas 
emissions.
    I look forward to working with the Members of this 
Subcommittee as the Climate Change Technology Program moves 
forward in evaluating, making recommendations and reporting 
progress on our technology-based approaches to address the risk 
of climate change.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    [The prepared statement of Mr. Conover follows:]

                 Prepared Statement of David W. Conover

Madam Chairman, Members of the Subcommittee,

    Thank you for this opportunity to testify today on the Bush 
Administration's activities for climate change technology. My testimony 
will cover the mission and activities of the Climate Change Technology 
Program; criteria and principles for climate change technology 
investments; and some highlights of our current climate change 
technology activities.

Climate Change Technology Program

    As part of the President's National Climate Change Technology 
Initiative, launched on June 11, 2001, the President directed the 
Secretary of Energy, in coordination with the Secretary of Commerce and 
the Administrator of the Environmental Protection Agency, to lead a 
multi-agency review of the Federal R&D portfolio and make 
recommendations. The Climate Change Technology Program (CCTP) was 
established in 2002 to implement the President's Initiative. I am the 
Program's Director.
    The CCTP is a multi-agency research and development (R&D) 
coordination activity, organized under the auspices of the Cabinet-
level Committee on Climate Change Science and Technology Integration 
(CCCSTI). Participating federal agencies include the Departments of 
Energy, Agriculture, Commerce, Defense, Health and Human Services, 
Interior, State, and Transportation, as well as the Environmental 
Protection Agency, the National Aeronautics and Space Administration, 
and the National Science Foundation.
    The mission of the CCTP is to focus federal research and 
development activities and deployment programs more effectively to help 
achieve the President's climate change goals, both near- and long-term. 
The CCTP provides a forum for interagency exchange of information on 
on-going R&D activities. The CCTP's multi-agency organizational 
structure provides an opportunity to develop, across the Federal 
Government, a comprehensive, coherent, multi-agency, multi-year plan 
for the development of climate change technology. We expect a draft of 
such a plan to be available in the first calendar quarter of 2004.
    As the Subcommittee is aware, the recent Federal Climate Change 
Expenditures Report to Congress reported that total federal 
expenditures for climate change technology research, development and 
deployment (RD&D) was $1.728 billion for FY 2003. The total amount 
requested in the President's budget for FY 2004 was $1.759 billion. In 
FY 2003, these expenditures were broken down by agency as follows: 
Department of Energy, $1.583 billion; Environmental Protection Agency, 
$106 million; and Department of Agriculture, $39 million. These amounts 
do not include substantial additional expenditures for climate change 
science ($1.722 billion) and international assistance ($276 million).
    As part of our review of the federal RD&D portfolio, CCTP is 
developing an inventory of federal climate change technology activities 
using a set of defined criteria. This process is designed to get a more 
complete picture of climate change technology RD&D by ensuring that all 
CCTP member agencies analyze their portfolios using consistent 
criteria. RD&D activities classified as part of the Climate Change 
Technology Program (CCTP) are those activities that are relevant to 
providing opportunities for:

        <bullet>  Current and future reductions in or avoidances of 
        emissions of greenhouse gases;

        <bullet>  Greenhouse gas capture and/or long-term storage, 
        including biological uptake and storage;

        <bullet>  Conversion of greenhouse gases to beneficial use in 
        ways that avoid emissions to the atmosphere;

        <bullet>  Monitoring and/or measurement of GHG emissions, 
        inventories and fluxes in a variety of settings;

        <bullet>  Technologies that improve or displace other GHG 
        emitting technologies, such that the result would be reduced 
        GHG emissions compared to technologies they displace;

        <bullet>  Technologies that could enable or facilitate the 
        development, deployment and use of other GHG-emissions 
        reduction technologies;

        <bullet>  Technologies that alter, substitute for, or otherwise 
        replace processes, materials, and/or feedstocks, resulting in 
        lower net emission of GHGs;

        <bullet>  Basic research activities undertaken explicitly to 
        address a technical barrier to progress of one of the above 
        climate change technologies.

        <bullet>  Greenhouse gas emission reductions resulting from 
        clear improvements in management practices.

    The development of this inventory is a very important component of 
the CCTP's activities, and we look forward to sharing the results of 
this work with you and your colleagues when it is complete.

CCTP Goals and Objectives

    CCTP seeks to address both the President's near- and long-term 
climate change goals. In the near-term, the President has committed to 
the goal of reducing the greenhouse gas intensity of the U.S. economy 
by 18 percent by 2012. Over the longer-term, the President has 
reaffirmed the U.S. commitment to the 1992 United Nations Framework 
Convention on Climate Change, which calls for long-term stabilization 
of concentrations of greenhouse gases in the Earth's atmosphere.
    The CCTP intends to develop the technological capability that will 
enable both sustained economic growth and reduced risk of potential 
climate change and its impacts. Accordingly, the CCTP aims to 
accelerate the development and deployment of new technologies that can 
significantly contribute to the accomplishment of the President's 
goals.
    CCTP participating agencies are pursuing research, development , 
and deployment activities, as appropriate to their specific agency 
missions, that are consistent with and supportive of the development of 
technology that can enable or advance the achievement of the following 
CCTP goals:

        <bullet>  Reduce or avoid emissions from energy end-use and 
        infrastructure

        <bullet>  Reduce or avoid emissions from energy supply

        <bullet>  Capture and sequester carbon dioxide (CO<INF>2</INF>)

        <bullet>  Reduce emission of non-CO<INF>2</INF> greenhouse 
        gases

    The achievement of these CCTP goals will be pursued, in general, by 
stimulating the science and technology enterprise of the United States, 
through coordinated federal leadership of its own R&D programs, and 
through partnership with others, at home and abroad. Specifically, the 
CCTP seeks to pursue the following strategic objectives:

        <bullet>  Strengthen Climate Change Technology RD&D

        <bullet>  Strengthen Supporting Basic Research at Universities 
        and National Laboratories

        <bullet>  Enhance Opportunities for Partnerships with 
        Businesses, States and Others

        <bullet>  Increase International Cooperation on Related Science 
        and Technology

        <bullet>  Support Cutting-Edge Demonstrations

        <bullet>  Improve the Means for Measuring and Monitoring 
        Greenhouse Gases

        <bullet>  Support Exploratory Research of Novel Concepts

        <bullet>  Ensure the Education and Training of an Adequate 
        Technical Workforce

    The CCTP function is interagency coordination and prioritization, 
not direct support of research, development and deployment. As such, 
CCTP will not advance these objectives directly, but will help agencies 
and programs that comprise the CCTP to advance them by making 
recommendations to reallocate and refocus resources consistent with 
agency and program missions.

Principles for Determining Priority Programs

    Our investments in climate change technology will be guided by a 
few basic principles, which include diversification, a logical order of 
technological development, systems integration, and planning in the 
face of uncertainty.
    Diversification of research and development activity is important 
for several reasons:

        <bullet>  The potential magnitude of the technological 
        challenge posed by climate change makes it extremely unlikely 
        that a single technology could meet such a challenge on its 
        own;

        <bullet>  A diversified portfolio is a solid hedge against the 
        possibility that some advanced technologies may not be as 
        successful as hoped, while others in the portfolio could exceed 
        expectations;

        <bullet>  A robust, diversified science and technology 
        capability will maintain the flexibility to respond to, and 
        assimilate, pertinent information from other countries, 
        institutions, or areas of scientific inquiry; and,

        <bullet>  A diversified portfolio is better able to balance 
        short- and long-term technology objectives.

    Sequencing of R&D investments in a logical, developmental order 
requires that R&D investments should be evaluated upon:

        <bullet>  The expected times when different technologies need 
        to be available and cost-effective;

        <bullet>  The need to quickly resolve critical uncertainties; 
        and,

        <bullet>  The need to demonstrate early the feasibility of 
        determinant technologies.

    These last two points help explain our increased attention to 
carbon sequestration research. If large-scale geologic sequestration is 
proved successful, then continued use of fossil fuels will be possible, 
and future climate change strategies could be built on existing 
infrastructure for fossil fuels, thus accelerating progress and 
avoiding early and costly retirement of this infrastructure. If large-
scale geologic sequestration were to prove unsuccessful, the longer-
term climate change technology portfolio will need to be adjusted 
accordingly towards energy efficiency and zero-emissions technologies 
such as renewable energy and nuclear power.
    Our R&D investments should also include attention to technology 
systems, including infrastructure, not just component technologies. The 
Hydrogen Fuel Initiative is an example of adherence to this principle, 
as it includes R&D activities on all aspects of the hydrogen system, 
including hydrogen production, storage, and delivery technologies, as 
well as fuel cells.
    Finally, in setting R&D investment priorities, the CCTP recognizes 
uncertainty in planning for the long-term and seeks to build a robust 
portfolio of technical activities that can be successful under a number 
of economic and energy policy scenarios. While nearly all such 
scenarios rely heavily on further advances in energy efficiency, we 
will also need significant new sources of low-carbon or zero-carbon 
energy supply. Thus, some CCTP activities may focus on development of 
low-carbon fossil fuel technologies that employ carbon capture and 
sequestration. Other activities may focus on building a new energy 
backbone, envisioning increased roles for renewable energy, hydrogen, 
and advanced concepts for nuclear power. Some CCTP activities may be 
focused on the long-term, more risky, but potentially transforming 
technologies, such as fusion energy and advances in biotechnology. We 
also want to ensure that innovative, crosscutting technology ideas with 
significant potential to reduce, avoid, or sequester greenhouse gas 
emissions are not overlooked.

Priorities for the National Climate Change Technology Initiative

    With these principles in mind and recognizing that not all climate 
change-related activities can be priorities, the CCTP will assess the 
inventory of CCTP activities and use professional judgment to clearly 
articulate its priorities in the context of the President's FY 2005 
Budget. The priorities will likely be consistent with the 
Administration's current priorities, which are well aligned with our 
planning principles. Some of these priorities are highlighted below.

        <bullet>  Hydrogen Energy. President Bush launched his Hydrogen 
        Fuel Initiative in this year's State of the Union address. The 
        goal is to work closely with the private sector to accelerate 
        our transition to a hydrogen economy, both on the technology of 
        hydrogen fuel cells and a fueling infrastructure. The 
        President's Hydrogen Fuel Initiative and the FreedomCAR 
        Partnership launched last year will provide $1.7 billion over 
        the next five years to develop hydrogen powered fuel cells, a 
        hydrogen infrastructure, and advanced automobile technologies, 
        allowing for commercialization by 2020. The United States will 
        pursue international cooperation to affect a more rapid, 
        coordinated advance for this technology that could lead to the 
        elimination of air pollutants and a significant reduction of 
        greenhouse gas emissions in the transportation sector 
        worldwide.

        <bullet>  ``FutureGen''--Coal-Fired, Zero-Emissions Electricity 
        Generation. In February 2003, President Bush announced that the 
        United States would sponsor, with international and private 
        sector partners, a $1 billion, 10-year demonstration project to 
        create the world's first coal-based, zero-emissions electricity 
        and hydrogen power plant. This project is designed to 
        dramatically reduce air pollution and capture and store 
        greenhouse gas emissions. This initiative is part of an 
        international Carbon Sequestration Leadership Forum, chaired by 
        the Secretary of Energy, to work cooperatively with our global 
        partners, including developing countries, on research, 
        development and deployment of carbon sequestration technologies 
        in the next decade.

        <bullet>  Fusion Energy. In January 2003, President Bush 
        committed the United States to participate in the largest and 
        most technologically sophisticated research project in the 
        world to harness the promise of fusion energy, the same form of 
        energy that powers the sun. If successful, this $5 billion, 
        internationally-supported research project will advance 
        progress toward producing clean, renewable, commercially-
        available fusion energy by the middle of the century. 
        Participating countries include the United Kingdom, Russia, 
        Japan, China, and Canada.

Conclusion

    Madam Chairman and Members of the Subcommittee, these programs and 
others like them together constitute a diverse portfolio of energy 
technologies that has the potential to bring about dramatic 
improvements in our energy systems with significantly reduced 
greenhouse gas emissions. I look forward to working with the Members of 
this Subcommittee as the Climate Change Technology Program moves 
forward in evaluating, making recommendations, and reporting progress 
on our technology-based approaches to address the risk of climate 
change.
    Thank you for the opportunity to testify, and I would be pleased to 
answer your questions.

                     Biography for David W. Conover

    Appointed Director of the Climate Change Technology Program in 
January 2003. The Climate Change Technology Program is a multi-agency 
research and development (R&D) coordination activity, organized under 
the auspices of the Cabinet-level Committee on Climate Change Science 
and Technology Integration (CCCSTI).
    Previously served as Minority Staff Director & Chief Counsel (2001-
2003), Majority Staff Director (1999-2001), and Subcommittee Counsel 
(1999) to the Senate Environment and Public Works Committee.
    Prior to government service, was Federal Affairs Director for CH2M 
HILL, an international environmental engineering, management and 
construction company.
    Received degrees from the Georgetown University Law Center and the 
University of Virginia. Licensed to practice law in the Commonwealth of 
Virginia.

    Chairwoman Biggert. Thank you, Mr. Conover. Mr. Rudins, am 
I pronouncing that correctly?
    Mr. Rudins. That is correct. Thank you.
    Chairwoman Biggert. Thank you.

STATEMENT OF GEORGE RUDINS, DEPUTY ASSISTANT SECRETARY FOR COAL 
          AND POWER SYSTEMS, U.S. DEPARTMENT OF ENERGY

    Mr. Rudins. Thank you, Madam Chairman and Members of the 
Subcommittee.
    In your letter of invitation, you requested I respond to 
specific questions recording FutureGen and carbon 
sequestration, which I attempted to do in my written statement, 
which I would like to submit for the record. And in that 
context, I would also like to make a short opening statement.
    I am pleased to appear before you today, and in the context 
of the FutureGen initiative and carbon sequestration, with much 
of the Nation's attention again focused on the security of 
global energy supplies, it is important to remember that we 
remain an energy-rich country. Today, coal is an indispensable 
part of our nation's energy mix. Because of its domestic 
abundance and low cost, coal now accounts for more than half of 
the electricity generated in this country, and in the future, 
it can also be a source of clean hydrogen to fuel our future 
transportation fleet.
    The challenge to keeping low coal--low cost coal available 
to fuel our economic growth is related to environmental 
concerns. Environmental issues can adversely impact coal use, 
especially in the long-term, if mandatory CO<INF>2</INF> 
controls are required. A solution to this problem is the 
development of technology options that would eliminate 
environmental concerns associated with its continued use.
    Over the last 30 years or so, the investment that we, the 
U.S. Government and industry, have made in the development of 
coal and clean coal technologies, has resulted in advancing of 
the state of the art in this area to the point that it is now 
possible to develop the technological capability to generate 
electricity from coal, co-produce hydrogen and virtually 
eliminate emissions, including the CO<INF>2</INF> emissions 
from the process, and do so, potentially, in a cost-competitive 
manner.
    This is what the FutureGen project is all about. FutureGen 
is one of the boldest steps toward a pollution-free energy 
future ever taken by our nation, and has the potential to be 
one of the most important advances in energy production in the 
first half of this century. FutureGen will pioneer carbon 
capture and sequestration technologies on a sufficient scale 
and an integrated fashion with power generation and hydrogen 
co-production that it will establish, if successful, the 
viability and affordability of this approach.
    The ultimate goal for FutureGen is to show how new 
technology can eliminate environment concerns over future use 
of coal. Knowledge from FutureGen will help turn coal from a 
challenging energy resource into an environmentally sustainable 
energy solution.
    In conclusion, coal is the workhorse of our domestic 
electric power sector, but it is also critical to the economic 
growth of key nations around the world. The International 
Energy Agency projects a 50 percent increase in worldwide coal 
use for the generation of electricity over the next quarter 
century. As a result, it would be prudent to include into any 
comprehensive climate strategy a technology option capable of 
reducing or eliminating CO<INF>2</INF> from the use of fossil 
fuels, such as carbon sequestration.
    The fact that coal will be a significant world energy 
resource during the 21st Century cannot be ignored. Coal is 
abundant, it is comparatively inexpensive, and will be used 
widely, especially in the developing world. The global 
acceptance of the concept of coal-based systems, integrated 
with sequestration technology, is one of the key goals of 
FutureGen. In addition, FutureGen in its ultimate configuration 
could also push electric power generating efficiencies into the 
60 percent range, nearly double the efficiency of today's 
conventional coal-burning plants.
    Thus, the FutureGen prototype plant would be a stepping 
stone to commercial coal-fired power plants that not only would 
be emission-free, but also would operate at unprecedented fuel 
efficiencies and co-produce low-cost, clean hydrogen from coal.
    With that brief statement, I would be pleased to answer any 
questions you may have. Thank you.
    [The prepared statement of Mr. Rudins follows:]

                  Prepared Statement of George Rudins

Madam Chairman and Members of the Subcommittee:

    I am pleased to appear before the Subcommittee today to discuss the 
great potential that new technology, especially carbon sequestration 
technology, will play in helping the Nation meet ever increasing 
demands for energy in the most efficient and environmentally 
responsible manner possible.
    With much of the Nation's attention again focused on the security 
of global energy supplies, it is important to remember that we remain 
an energy-rich country.
    Today, coal is an indispensable part of our nation's energy mix. 
Because of its abundance and low cost, coal now accounts for more than 
half of the electricity generated in this country.
    Coal is our nation's most abundant domestic energy resource. One 
quarter of the entire world's known coal supplies are found within the 
United States. In terms of energy value (Btus), coal constitutes 
approximately 95 percent of U.S. fossil energy reserves. Our nation's 
recoverable coal has the energy equivalent of about one trillion 
barrels of crude oil--comparable in energy content to all the world's 
known oil reserves.
    At present consumption rates, U.S. coal reserves are expected to 
last at least 275 years.
    Coal has also been an energy bargain for the United States. 
Historically it has been the least expensive fossil fuel available to 
the country, and in contrast to other primary fuels, its costs are 
likely to decline as mine productivity continues to increase. The low 
cost of coal is a major reason why the United States enjoys some of the 
lowest electricity rates of any free market economy.
    America produces over one billion tons of coal per year. Nearly all 
of it (965 million tons) goes to U.S. power plants for the generation 
of electricity.
    According to the Energy Information Administration, annual domestic 
coal demand is projected to increase by 394 million tons from the 2001 
level of 1.050 billion tons to 1.444 billion tons in 2025, because of 
projected growth in coal use for electricity generation.
    Largely because of improving pollution control technologies, the 
Nation has been able to use more coal while improving air quality. 
While annual coal use for electric generation has increased from 320 
million tons in 1970 to more than 900 million tons, sulfur dioxide 
emissions from coal-fired power plants have dropped from 15.8 million 
tons annually to 10.1 million tons in 2001, the most current year 
available. In addition, particulates from coal-fired plants declined 
some 60 percent over the same period, according to the Environmental 
Protection Agency.
    Because coal is America's most plentiful and readily available 
energy resource, the Department of Energy (DOE) has directed 
significant R&D resources at finding ways to use coal in a more 
efficient, cost-effective, and environmentally benign manner.
    New government-industry collaborative efforts are getting underway 
pursuant to the President's Coal Research Initiative. These programs 
will continue to find ways to limit emissions from power generation, at 
lower costs. The goal for FutureGen, discussed later in my testimony, 
is to remove environmental issues, including greenhouse gas emissions, 
from the fuel choice equation by developing a coal-based zero emission 
power plant.

The Next Generation of Power Plants

    In the 1970's, the technology for coal-fired power plants was 
generally limited to the pulverized coal boiler--a large furnace-like 
unit that burns finely ground coal. As part of DOE's Clean Coal 
Technology Program, DOE and industry have demonstrated higher fuel 
efficiencies and superior environmental performance. For example, coal 
could be gasified--turned into a combustible gas. In gaseous form, 
pollutant-forming impurities can be more easily removed. Like natural 
gas, gasified coal could be burned in a gas turbine-generator, and the 
turbine exhaust used to power a steam turbine-generator. This 
``combined cycle'' approach raised the prospects of unprecedented 
increases in fuel efficiency. Gasification combined cycle (IGCC) plants 
built near Tampa, Florida (TECO Project), and West Terre Haute, Indiana 
(Wabash River Project), are among the cleanest, most efficient coal 
plants in the world. The Wabash River Project, which is a repowering of 
an existing coal-fired unit, resulted in a 30-fold decrease in SO<INF>2</INF> 
and a five-fold decrease in NOX emissions. These projects have recently 
completed their demonstration phases and are entering commercial 
operations.
    The progress to date in developing these two IGCC demonstration 
projects--now in commercial service--has laid the foundation for 
broader application of IGCC.

FutureGen--Zero Emissions From Cutting Edge Technology

    Earlier this year, President Bush and Secretary of Energy Abraham 
announced plans for the United States to build--with international and 
private sector partners--a cost-shared fossil fuel power plant of the 
future called FutureGen. It is one of the boldest steps toward a 
pollution-free energy future ever taken by our nation and has the 
potential to be one of the most important advances in energy production 
in the first half of this century.
    This demonstration power plant will accommodate some cutting-edge 
technologies to the core demonstration facility. FutureGen will be a 
cost-shared $1 billion venture. While there has been no final decision 
on the appropriate cost-sharing, and 80/20 cost-share may be 
appropriate for those FutureGen activities that are prototype or basic 
research in nature and do not involve commercial demonstration. 
Demonstration activities would be cost-shared at 50/50. FutureGen will 
combine electricity and hydrogen production with the virtual 
elimination of emissions of such air pollutants as sulfur dioxide, 
nitrogen oxides and mercury, as well as carbon dioxide, a greenhouse 
gas.
    The Department envisions that FutureGen would be sized to generate 
the equivalent of approximately 275 megawatts of electricity, roughly 
equal to an average mid-size coal-fired power plant. It will turn coal 
into a hydrogen-rich gas, rather than burning it directly. The hydrogen 
could then be combusted in a turbine or used in a fuel cell to produce 
clean electricity, fed to a refinery to help upgrade petroleum 
products, or used as a fuel for a future hydrogen economy.
    It will provide other benefits as well. FutureGen could provide a 
zero emissions technology option for the transportation sector--a 
sector that accounts for one-third of our nation's carbon dioxide 
emissions.
    In the future, the plant could become a model for the production of 
coal-based hydrogen with zero emissions to power the new fleet of 
hydrogen-powered cars and trucks envisioned as part of President Bush's 
Hydrogen Fuel Initiative. Using our abundant, readily available, low-
cost coal to produce hydrogen--an environmentally superior 
transportation fuel--would help ensure America's energy security.
    Carbon sequestration will be one of the primary features that will 
set the FutureGen plant apart from other electric power projects. 
Engineers will design into the plant advanced capabilities to capture 
the carbon dioxide. No other electricity power plant in the world has 
been built with this capability.
    Once captured, carbon dioxide will be injected deep underground, 
into brackish reservoirs that lay thousands of feet below the surface 
of much of the United States, or into oil or gas reservoirs, or into 
unmineable coal seams or volcanic basalt formations. Once entrapped in 
these formations, the greenhouse gas would be permanently isolated from 
the atmosphere.
    The project will seek to sequester carbon dioxide emissions at an 
operating rate of one million metric tons or more of carbon dioxide 
sequestered per year. We will work with the appropriate domestic and 
international communities to establish standardized technologies and 
protocols for carbon dioxide measuring, monitoring, and verification.
    The FutureGen plant will pioneer carbon sequestration technologies 
tied to power plants on a scale that will help determine whether this 
approach to 21st century carbon management is viable and affordable.

What are the Most Important Outstanding Technical Issues Associated 
        With Geological Sequestration?
    Integrated operation of energy production and sequestration in the 
FutureGen facility is required to establish that technical issues 
associated with sequestration are of no concern or can be readily 
managed during operation. Potential issues include downtime of CO<INF>2</INF> 
separation processes, and corrosion or plugging of the sequestration 
pipeline, wellbore, and formation, and leakage of sequestered 
CO<INF>2</INF>.
    Geologic Sequestration can be divided into four overarching 
categories: Transport; Storage; Measurement/ Monitoring/Verification 
(MM&V); and Infrastructure. For each of these areas, a brief 
description of R&D approaches being taken to overcome outstanding 
technical issues is provided. For Transport, R&D is developing an 
increased understanding and best practice strategies to minimize 
corrosion. For Storage, R&D is developing best practice strategies to 
identify optimal locations for candidate geologic reservoirs and 
reservoir management practices to maximize CO<INF>2</INF> storage. This 
R&D will provide FutureGen with site selection guidelines and reservoir 
management practices throughout the lifespan of FutureGen. MM&V is 
critical to ensure permanence and safety of CO<INF>2</INF> 
sequestration. R&D is developing technologies to minimize leakage and 
ensure permanent storage to below 0.01 percent leakage per year. 
Developments in sub-surface tracking relative to seismic, gravitational 
and logging technologies are evolving to where movement of very small 
amounts of CO<INF>2</INF> in reservoir can be tracked. Methods to track 
surface leakage are being developed to identify small surface leaks at 
nearly any point above the surface of a geologic formation. Lastly, for 
Infrastructure, the Carbon Sequestration Leadership Forum and Regional 
Carbon Sequestration Partnerships are developing the infrastructure, 
regulatory framework, and other sequestration protocols that are 
critical to both FutureGen deployment and, more importantly, subsequent 
widespread deployment of the integrated FutureGen power plant.

What Technical Questions Will the FutureGen Project Be Designed To 
        Address?
    FutureGen will focus on integrating and demonstrating the 
technology needed to economically remove the environmental constraints 
associated with producing energy from coal, especially those associated 
with the CO<INF>2</INF> emissions. The FutureGen project will 
demonstrate the technical and economic feasibility of zero-emission 
power plants by integrating the production of electricity and hydrogen 
from coal with the capture and permanent sequestration of CO<INF>2</INF> 
generated in the process. FutureGen will employ coal gasification 
technology, integrated with combined-cycle electricity generation, 
hydrogen production, and capture and sequestration of CO<INF>2</INF>.
    The goal of FutureGen is to conclusively show that using coal to 
produce electricity and hydrogen with zero or near-zero carbon 
emissions is a viable approach for carbon management. To prove 
viability, the sequestration technology needs to be demonstrated at a 
meaningful scale under real-world conditions. This requires the 
operation of a large scale, integrated system. FutureGen may also 
accommodate some cutting-edge technologies to produce electricity and 
hydrogen, which would need to be integrated with CO<INF>2</INF> 
sequestration technologies. Monitoring and verifying the permanence of 
CO<INF>2</INF> sequestration is a key part of the project. The geologic 
formations into which the CO<INF>2</INF> will be sequestered will be 
heavily instrumented to monitor and verify the permanence of CO<INF>2</INF> 
storage. Monitoring and verification of the amount of CO<INF>2</INF> 
sequestered are critical issues in public acceptance of sequestration. 
Other elements are to: maximize storage potential; track CO<INF>2</INF> 
movement in the geologic formation; monitor for and mitigate surface 
leakage, if it occurs; and integration of CO<INF>2</INF> capture and 
storage with the co-production of hydrogen and electricity.

Is Our Current State of Knowledge Sufficient To Proceed With A Large 
        Scale Demonstration Project?
    Our state of knowledge is sufficient to proceed with a large scale 
demonstration project. The use of sequestration to reduce CO<INF>2</INF> 
emissions is a relatively new idea. DOE's sequestration program is only 
six years old--a short time for a major technology development program. 
However, for more than 40 years the petroleum industry has injected 
CO<INF>2</INF> into depleted oil and gas fields for enhanced oil 
recovery and the disposal of acid gases that are produced from some gas 
and oil wells. The primary components of acid gas are CO<INF>2</INF> 
(typically up to 90 percent), hydrogen sulfide, and other trace 
contaminants. Hydrogen sulfide is lighter than CO<INF>2</INF> and has a 
strong smell even at concentrations of a few parts per million, making 
it easy to detect. No significant leaks of hydrogen sulfide have been 
reported over the years. Over 70 CO<INF>2</INF> enhanced oil recovery 
projects inject more than eight million tons of CO<INF>2</INF> per year 
into oil reservoirs throughout the United States and Canada. Many of 
these projects have been injecting at these levels for more than 20 
years. The risk of catastrophic release of CO<INF>2</INF> is almost 
non-existent. No known hazardous CO<INF>2</INF> leaks have ever been 
associated with leakage from a geologic formation.
    Two large-scale carbon sequestration projects exist today. The 
first project is the offshore Sleipner facility, owned and operated by 
Statoil, Norway's state oil company. Located beneath the North Sea, the 
Sleipner field is one of the world's largest natural-gas fields, and is 
characterized by a high concentration of CO<INF>2</INF>, typically 
around nine percent. To produce pipeline-quality natural gas, Statoil 
strips the excess CO<INF>2</INF> from the recovered gas on its offshore 
production platform. The CO<INF>2</INF> is then injected into a saline 
reservoir 1,000 meters below the seabed. Since 1996, Statoil has 
injected one million metric tons of CO<INF>2</INF> per year. The 
project is partially driven by a Norwegian tax credit of up to $35 per 
metric ton of CO<INF>2</INF> sequestered.
    The recently initiated Weyburn Project is the only other large-
scale CO<INF>2</INF> sequestration effort in existence. This project, 
organized by the Department of Natural Resources of Canada, has the 
dual purpose of enhanced oil recovery and carbon sequestration. Carbon 
dioxide from the Great Plains Synfuels plant in Beulah, North Dakota is 
pumped 200 miles to the Weyburn oil field in southeastern Saskatchewan. 
Over the project's 20-year lifetime, 20 million metric tons of CO<INF>2</INF> 
will be injected into the Weyburn field. DOE's sequestration program is 
supporting extensive measurement, monitoring, and verification efforts 
for both the Sleipner and Weyburn large-scale projects.

How Did the Department Choose The Scale and Scope of FutureGen?
    FutureGen will be designed to operate at a nominal 275 MW (net 
equivalent output), and may accommodate some cutting-edge technologies 
into the demonstration plant to produce electricity and hydrogen 
integrated with CO<INF>2</INF> sequestration technologies. This size is 
driven by the requirement for producing relevant data and by the 
requirement for producing one million metric tons per year of CO<INF>2</INF> 
to adequately validate the integrated operation of the gasification 
plant and the receiving geologic formation. Full scale demonstration is 
necessary to adequately address the integration issues including 
sequestration.
    Since FutureGen is a first-of-a-kind project, the key cost risks 
include integration of advanced technologies for power and hydrogen 
generation with sequestration, and technologies at full-scale to 
capture and sequester large quantities of CO<INF>2</INF>.
How Did the Department Determine the Cost of This Project?
    Estimated project cost is based on cost experiences with other 
projects including ongoing large-scale sequestration projects as 
described earlier, and past coal gasification projects of similar size. 
DOE also accounted for the cost associated with using advanced 
technology, built-in flexibility features to accommodate possible 
testing of cutting edge subsystems and components, required 
instrumentation, the integration aspects between the power facility and 
the sequestration facility, and finally the operational costs for the 
demonstration period. On the basis of prior experience with first-of-a-
kind power projects, DOE projects a total project cost of $1 billion.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


What Levels of Funding Will Be Provided by Industry and International 
        Partners?
    The funding required to accomplish FutureGen is expected to be $1 
billion. A private-sector share of 20 percent will be required for 
those activities that are prototype or basic research in nature and do 
not include commercial demonstration while those activities that are 
commercial demonstration will be cost-shared at 50/50. DOE is also 
pursuing funding participation from domestic (e.g., states) and foreign 
government entities.

What Factors Will the Department Consider Regarding Site Selection For 
        Geological Sequestration Projects and Experiments?
    Site selection must consider many factors. Three considerations are 
the feedstock, use of the products (electric power, hydrogen, and other 
by-products), and sequestration options. The ideal location requires 
geologic formations that may be the best suited candidates for large-
scale facilities. However, final site selection will be based on 
comprehensive criteria derived from detailed geologic assessment.
    The reservoir(s) selected for sequestration will be representative 
of geologic sites commonly available throughout the United States. The 
candidate geologic formations include unmineable coal seams, depleted 
oil and natural gas reservoirs, deep saline reservoirs, or other 
formations. Geologic sequestration may be coupled with resource 
recovery in projects such as enhanced oil recovery or coalbed methane 
recovery.

What Work Should Be Done Prior to FutureGen Site Selection?
    DOE plans to perform due diligence activities prior to site 
selection. The Sequestration R&D program, Regional Partnerships and 
Carbon Sequestration Leadership Forum will work to identify the most 
appropriate areas of the country for candidate sequestration 
formations. A Programmatic Environmental Impact Statement (PEIS) will 
be initiated in fiscal year 2004 which will identify environmental 
issues related to geologic site selection and provide guidelines for 
geologic site selection activities to support FutureGen.

Conclusion

    The ultimate goal for the FutureGen project is to show how advanced 
coal-based generation using carbon sequestration technology can 
eliminate environmental concerns over the future use of coal and allow 
the Nation to realize the full potential of its abundant coal resources 
to meet our energy needs. FutureGen will show that coal, an 
environmentally challenging energy resource, can be an environmentally 
sustainable energy solution.
    The fact that coal will be a significant world energy resource 
during the 21st century cannot be ignored. Coal is abundant, it is 
comparatively inexpensive, and it will be used widely, especially in 
the developing world. Global acceptance of the concept of coal-based 
systems integrated with sequestration technology is one of the key 
goals of FutureGen.
    Thus, FutureGen will demonstrate the commercial viability of a 
coal-fired power plant that not only will be emission-free but also 
will operate at unprecedented fuel efficiencies and co-produce low/
cost, clean hydrogen from coal.
    This completes my prepared statement. I would be happy to answer 
any questions you may have.

                      Biography for George Rudins

    Mr. George Rudins has been with the Department of Energy (or ERDA - 
its predecessor agency) since 1975. Currently the Deputy Assistant 
Secretary for Coal and Power Systems, within the agency's Office of 
Fossil Energy, Rudins has served in this position since 1998. Previous 
to that time, Rudins' assignments within the Office of Fossil Energy 
included: Assistant Deputy Assistant Secretary for Coal R&D; Director 
of the Office of Advanced Power Systems; Director of the Office of 
Advanced Energy Conversion Systems; and, Director of the Office of 
Magneto-Hydrodynamic (MHD) Systems. In conjunction with these 
assignments, Rudins' management responsibilities included oversight of 
the Clean Coal Technology Demonstration Program, the Coal Research and 
Development Program, the Power Plant Emissions Control Research 
Program, the Fuel Cell Research Program, the Gas Turbine Research 
Program, the MHD Research Program, the Coal Fuel/Diesel Engine Research 
Program, and others. Rudins' performance in his various assignments has 
been recognized through a number of awards, including a Presidential 
Rank Award. Before joining the Department of Energy, Rudins was with 
the Rand Corporation (1970-1975); prior to this he was with the 
National Academy of Sciences. Rudins received a B.A. from Rutgers 
University in 1966.

    Chairwoman Biggert. Thank you very much, Mr. Rudins. Dr. 
Benson.

     STATEMENT OF DR. SALLY M. BENSON, DEPUTY DIRECTOR FOR 
       OPERATIONS, LAWRENCE BERKELEY NATIONAL LABORATORY

    Dr. Benson. Chairman Biggert and Members of the 
Subcommittee, thank you for the opportunity to provide 
testimony on this important and timely topic.
    I am Dr. Sally Benson, a hydrogeologist at Lawrence 
Berkeley National Laboratory, and I have been working on this 
since 1999, with a team of geologists at my laboratory.
    Today, nearly two million tons of CO<INF>2</INF> are 
sequestered annually in geologic formations at the Sleipner 
Project in the North Sea, and at the Weyburn oil field in 
Canada. More commercial projects are planned in Algeria, 
Australia and offshore Norway. In addition to these successful 
commercial projects, the existence of naturally-occurring 
CO<INF>2</INF> reservoirs proves that CO<INF>2</INF> can be 
sequestered for hundreds of thousands of years or more.
    Depleted oil and gas reservoirs are especially promising 
for long-term sequestration, because they have seals that have 
stood the test of time. They are also attractive because 
CO<INF>2</INF> sequestration can be combined with enhanced oil 
recover, a mature technology that is applicable to 80 percent 
of oil reservoirs.
    The availability of a low-cost and abundant supply of 
CO<INF>2</INF> could be a boon to the domestic oil industry. A 
similar idea can be applied to enhance the recovery of natural 
gas from deep coal beds. Now, to answer your question about the 
most important outstanding technical issues, sandstone 
reservoirs filled with salt water, such as the Mount Simon 
Formation in the Midwest, the Frio Formation along the Texas 
Gulf Coast and the Central Valley of California are estimated 
to have the capacity to store hundreds of years of CO<INF>2</INF> 
emissions at today's rates. That natural gas has been stored at 
over 50 aquifer storage sites in the U.S. alone demonstrates 
that appropriately-sited projects can safely and effectively 
sequester CO<INF>2</INF> underground.
    The best sequestration sites will be at depths between 
three quarters and two miles deep, have a thick sequence of 
permeable and porous sands, and be overlain by at least one 
thick and continuous seal. However, site selection criteria 
have yet to be developed, and capacity estimates have not yet 
been validated by regional or site-specific experiments.
    Monitoring to verify that CO<INF>2</INF> is safely and 
effectively sequestered, or to provide early warning in the 
event that a project is failing, is also needed. Methods 
developed by the oil and gas industry, such as 3-D seismic 
surveys, or injection well pressure monitoring, can be used, 
but more studies are needed to develop standard protocols for 
monitoring.
    Computer models that predict the performance of 
sequestration projects are also needed. While reservoir 
simulation is a mature technology, the capability of today's 
models need to be extended to include accurate representation 
of the geochemical and geomechanical processes that are 
important for geologic sequestration. These need--models need 
to be validated by a number of site-specific studies that cover 
the range of geologic settings that could be used for CO<INF>2</INF> 
sequestration.
    The potential environmental consequences of geologic 
sequestration are also well understood, based on analogous 
experience from the oil and gas industry, natural gas storage, 
EPA's Underground Injection Control Program and places such as 
Perrier in France, where CO<INF>2</INF> naturally seeps to the 
ground surface. The highest probability risks are associated 
with improper injection well completions, abandoned wells and 
inadequate characterization of the sequestration site. Over 
time, technologies and monitoring protocols have, however, been 
developed to manage and mitigate these concerns.
    To summarize, geologic sequestration of CO<INF>2</INF> is 
in practice today and more is planned. However, to fully 
evaluate the potential for large-scale application, a research 
program that combines site-specific field studies with a 
directed research program must be pursued.
    Now, to answer your question about what portion of these 
uncertainties could be reduced by additional research, well, 
all of them can be. However, because of the site-specific 
nature of the factors that provide secure storage, pilot tests 
should be located in each of the regions where there are large 
concentrations of stationary CO<INF>2</INF> sources. While many 
of these issues can be addressed by small-scale pilot tests, 
eventually, full-scale demonstration projects will be needed. 
So are we ready for full-scale demonstration projects? Well, 
clearly, the experience at Sleipner and Weyburn in Canada 
demonstrate that we are ready today. However, before we can 
embark on this, potential sites need to be screened, pilot 
tests need to be carried out, including demonstrating that our 
models and monitoring methods are adequate and risk assessment 
is needed.
    So, in summary, geologic sequestration is an important 
component of a climate change technology portfolio. It offers 
the potential for deep reductions in CO<INF>2</INF> emissions, 
while allowing the continued use of fossil fuels. Efforts are 
underway to address these issues and success can be assured by 
a sustained commitment to an adequate program of directed 
research, pilot tests and full-scale demonstration.
    Thank you for your attention.
    [The prepared statement of Dr. Benson follows:]

                 Prepared Statement of Sally M. Benson

Questions

        1.  What are the most important outstanding technical issues 
        associated with geologic sequestration of carbon dioxide 
        (CO<INF>2</INF>)? Please describe the geologic, environmental, 
        economic, and technical uncertainties. What portion of these 
        uncertainties could be reduced through additional research?

        2.  Is our state of knowledge sufficient to proceed with a 
        full-scale carbon sequestration demonstration project? By 
        concentrating funding in one large project, do we run the risk 
        of moving to large-scale sequestration before the technical 
        uncertainties have been adequately addressed?

        3.  What factors should the Department consider in selecting 
        geological sites for carbon sequestration projects and 
        research? What work should be done prior to selection of the 
        FutureGen site?

        4.  What are the costs of CO<INF>2</INF> injection? How 
        directly do the injection technologies developed for secondary 
        recovery of oil apply to the injection of CO<INF>2</INF> for 
        sequestration?

Testimony

    Chairman Biggert and Members of the Subcommittee, thank you for the 
opportunity to provide testimony on this important and timely topic. I 
am Dr. Sally Benson, a hydrogeologist. I work at the Lawrence Berkeley 
National Laboratory and since 1999 I have led a team of earth 
scientists working on geologic sequestration of carbon dioxide 
(CO<INF>2</INF>).
    Carbon dioxide capture and sequestration in deep geologic 
formations can provide greater than 90 percent reduction in CO<INF>2</INF> 
emissions from stationary sources such as power plants. The idea was 
first developed in the late 1970's but did not get much attention until 
the late 1980's when scientists began to look in earnest for solutions 
to the climate change problem. Since that time it has emerged as one of 
the most promising options for deeply reducing CO<INF>2</INF> emissions 
while continuing to use fossil fuels.
    Before answering your specific questions, let me first provide some 
background information.
    Today nearly two million tons of CO<INF>2</INF> are sequestered 
annually in geologic formations at the Sleipner Project in the North 
Sea and in the Weyburn oil field in Canada. More commercial projects 
are planned in Algeria, Australia and off-shore Norway. CO<INF>2</INF> 
can be sequestered in sedimentary basins made up of alternating layers 
of sandstones, carbonates, evaporites and shales. The sandstone layers 
typically provide the reservoir and the shale or evaporites provide 
seals to trap fluids or gases deep below the land surface. The 
existence of naturally occurring CO<INF>2</INF> reservoirs proves that 
CO<INF>2</INF> can be sequestered for hundreds of thousands of years or 
more. In addition many oil and gas reservoirs also contain large 
quantities of CO<INF>2</INF> confirming that oil and gas reservoirs can 
also contain CO<INF>2</INF>.
    Depleted oil and gas reservoirs are especially promising for long-
term sequestration because they have seals that have stood the test of 
time. They are also attractive because CO<INF>2</INF> sequestration can 
be combined with enhanced oil and gas recovery. During the early stages 
of a sequestration project the remaining oil can be swept from the 
reservoir. Eventually, oil production will stop and the reservoir can 
be filled to capacity for long-term sequestration of CO<INF>2</INF>. 
This is a mature technology and an estimated 80 percent of oil 
reservoirs are suitable for CO<INF>2</INF> enhanced oil recovery. The 
availability of an abundant low-cost supply of CO<INF>2</INF> could be 
a boon to the domestic oil industry. A similar idea can be applied to 
enhance the recovery of natural gas from deep coal beds. Tests of this 
concept are underway in the San Juan Basin in New Mexico.
    Now, returning to your first question about the most important 
outstanding technical issues, most of them are about sequestering 
CO<INF>2</INF> in deep salt-water filled sandstones. Sandstone 
formations filled with salt-water, such as the Mount Simon Formation in 
the Midwest, the Frio Formation along the Texas Gulf Coast, and the 
Central Valley in California, are estimated to have the capacity to 
accommodate hundreds of years of CO<INF>2</INF> emissions at today's 
rates. That natural gas has been stored at over 50 aquifer storage 
sites in the U.S. alone, demonstrates that appropriately sited projects 
can safely and effectively sequester CO<INF>2</INF> underground. The 
best sequestration sites will be at depths between three-quarters and 
two miles deep, have several hundred feet of porous and permeable 
sands, and be overlain by at least one thick and continuous seal. 
However, site selection criteria have not been developed and capacity 
estimates have not yet been validated by regional or site-specific 
field experiments.
    So far, I have only discussed the potential for physically trapping 
CO<INF>2</INF> in deep geologic formations. Sequestration can be even 
more secure if the CO<INF>2</INF> dissolves in water or is converted to 
minerals such as calcium carbonate. While we know that these 
geochemical reactions will occur slowly, we don't know exactly how slow 
or how much to expect. This is another important area for research.
    Monitoring to verify that CO<INF>2</INF> is safely and effectively 
sequestered, or to provide early warning in the event that a project is 
failing, is also needed. Methods developed by the oil and gas industry 
such as injection well pressure monitoring and 3-D seismic surveys can 
be used. But more site-specific studies are needed to demonstrate their 
sensitivity and to develop standard protocols for monitoring. New 
remote-sensing techniques for directly verifying sequestration would 
also be valuable.
    Computer models that predict the performance of a sequestration 
project also need to be verified. While reservoir simulation is a 
mature technology, the capability of today's models need to be extended 
to include accurate representation of geochemical and geomechanical 
processes that are important for geologic sequestration. These models 
need to be validated by a number of site specific studies that cover 
the range of geologic settings that could be used for CO<INF>2</INF> 
sequestration.
    The potential environmental consequences of geologic sequestration 
are well understood based on analogous experience from the oil and gas 
industry, natural gas storage, EPA's Underground Injection Control 
Program and places such as Perrier in France where CO<INF>2</INF> 
naturally seeps out at the ground surface. The highest probability 
risks are associated with improper injection well completions, 
abandoned wells and inadequate characterization of the sequestration 
site. Over time, technologies and monitoring protocols have been 
developed to manage and mitigate these concerns. Implemented on a small 
scale, in a well characterized geologic setting, geologic sequestration 
poses no unique or poorly understood risks. However, after the best 
characterized and most secure sites are filled, a significant 
characterization and risk assessment effort will be needed to 
accommodate additional CO<INF>2</INF> sequestration.
    To summarize about the most important outstanding technical issues, 
geologic sequestration of CO<INF>2</INF> is in practice today and more 
is planned. It builds upon a technology base developed over more than 
one-half a century by the oil and gas industry. However, to fully 
evaluate and realize the potential for large-scale application, site-
specific field studies and a core directed-research program are needed. 
Specifically, the combined program must:

        <bullet>  Provide regionally validated estimates of 
        sequestration capacity;

        <bullet>  Enhance our understanding of the geochemical 
        reactions and geomechanical processes that enhance or 
        compromise sequestration security;

        <bullet>  Provide validated approaches to modeling and 
        monitoring; and

        <bullet>  Perform regional and site-specific risk assessments.

    To answer your question about what portion of these uncertainties 
can be reduced by additional research, all of them can be with a 
research program that combines regionally-relevant pilot-tests with a 
core directed-research program. Because the regional and site-specific 
nature of the factors that provide secure geologic sequestration, 
pilot-tests should be located in each of the regions with a large 
concentration of stationary CO<INF>2</INF> sources. While many of these 
issues can be addressed by small scale pilot-tests, eventually, full 
scale demonstration projects will be needed.
    With regard to the committee's second and third questions, are we 
ready for a full-scale demonstration and what work is needed before a 
site is selected? The full-scale geologic sequestration projects at 
Sleipner and Weyburn attest to this fact that a full-scale 
demonstration can be carried out today. However, first, potential sites 
need to be screened, pilot-tests must be carried out, including 
demonstrating that our models and monitoring methods are adequate, a 
risk assessment is needed and permits must be obtained.
    To answer your fourth question, estimated costs for geologic 
sequestration of CO<INF>2</INF> range from about $3 to $10 per ton, 
depending on site specific considerations such as how many injection 
wells are needed, surface facilities, economy of scale and monitoring 
requirements. As the technology matures, uncertainties in costs will be 
reduced. These costs are small fraction of the cost of CO<INF>2</INF> 
capture and consequently have not been the focus of much attention.
    In summary, geologic sequestration is an important component of a 
climate change technology portfolio. It offers the potential for deep 
reductions in CO<INF>2</INF> emissions while allowing continued use of 
fossil fuels. Efforts are underway to address the important technical 
issues and success can be assured by a sustained commitment to an 
adequate program of directed-research, pilot-tests at regionally 
relevant sites and full-scale demonstration.

                     Biography for Sally M. Benson

    Dr. Sally M. Benson is the Deputy Director for Operations at Ernest 
Orlando Lawrence Berkeley National Laboratory. In addition to this 
administrative position, she is a staff scientist in the Earth Sciences 
Division of the Laboratory. A lead researcher in her field, Dr. Benson 
has addressed a range of issues related to energy and the environment, 
including environmental remediation, gas storage, and geothermal energy 
production. In many recent years she has focused her research on carbon 
sequestration, particularly on sequestration in deep geologic 
formations.
    Dr. Benson is the Director of the GEO-SEQ Project, a National 
Energy Technology Laboratory (NETL) sponsored project. She continues to 
work on providing safe and cost-effective methods for geologic 
sequestration of CO<INF>2</INF>. She has authored or co-authored an 
abundance of scientific publications on the subject. Currently, she is 
a coordinating lead author for the ``Intergovernmental Panel on Climate 
Change (IPCC) Special Report on CO<INF>2</INF> Capture and Storage.'' 
Dr. Benson often travels, both throughout the United States and abroad, 
to lecture about her scientific research.
    A graduate of Barnard College, Columbia University with a B.A. in 
Geology, she completed her education in 1988 at the University of 
California, Berkeley, receiving her M.S. and Ph.D. degrees in Materials 
Science and Mineral Engineering. Dr. Benson serves on numerous 
committees, such as the Carbon Mitigation Initiative (CMI) Advisory 
Board and the CO<INF>2</INF> Capture Project/British Petroleum (CCP/BP) 
Technology Advisory Board. In 1996, Dr. Benson was awarded the 
Department of Energy Certificate of Appreciation for her lead in the 
development of the Natural and Accelerated Bioremediation Research 
Program Plan.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairwoman Biggert. Thank you, Doctor. And Dr. Brown.

   STATEMENT OF DR. MARILYN A. BROWN, ENERGY EFFICIENCY AND 
    RENEWABLE ENERGY PROGRAM, OAK RIDGE NATIONAL LABORATORY

    Dr. Brown. Good morning, Chairman Biggert and Members of 
the House Subcommittee. Thank you for inviting me to comment on 
the subject of climate change technologies.
    Let us start with the issue of portfolio balance. One needs 
to consider all of the standard dimensions, such as the 
benefits, that is, the greenhouse gas emission reductions, the 
other benefits that might result, the ancillary, productivity 
and safety and security and health and pollution reductions 
that could occur. You have got to consider the costs, the R&D 
and other costs, equity concerns, who pays, who wins, as well 
as looking at the full spectrum of ways that carbon atmospheric 
concentrations can be reduced.
    And in doing that, I like to divide those methods into 
three categories. One is ways of reducing the energy intensity 
of the Nation's economy, using less energy per GDP, and to do 
that, you can employ various energy efficiency technologies, or 
you can use system enhancements, such as locating power 
generation near to facilities that can take advantage of the 
heat, waste heat, that is produced at those facilities.
    A second way is to reduce the carbon intensity of the 
energy system. Here, you turn to ways of producing energy using 
less carbon intensity, so renewable energy, nuclear energy, 
those are some of the approaches that would work there. And 
third is carbon sequestration, where you, as Dr. Benson and Mr. 
Rudins have focused on some of those technologies.
    There was a study completed in the late 1990's by 11 
national laboratories that used the typology I just mentioned, 
energy intensity, carbon intensity and carbon sequestration, 
and enumerated hundreds of specific approaches in each of those 
three categories, and concluded that there is a relationship 
between those categories, and the time horizon required to 
produce cost-effective solutions, and the most cost-effective 
solutions that exist today are in the energy intensity 
reduction category, that is, in the energy efficiency arena. It 
is going to take another decade or two, possibly three, for the 
other approaches to become cost-effective.
    So, let us talk about the no regret strategy you asked me 
to address. Many studies have documented that the Nation has a 
significant reservoir of cost-effective energy efficiency 
opportunities. Focusing on these technologies has been called a 
no regrets approach, because it promotes the investments--it 
promotes investments that would be good for the consumer and 
good for the environment. It is also sometimes called the 
double dividends approach for that reason.
    As an example, let us look at the experience of the 
Department of Energy's Best Practices Program, which has 
developed industrial plant assessment tools to try to reduce 
the consumption of energy at industrial plants in the areas of 
steam, air--compressed air, motors and drive systems. I like to 
use that as an example, because they have documented so 
carefully the powerful amount of opportunity that exists in 
these manufacturing facilities to save energy. In the first 
five plant assessments that were done by this program, they 
documented $17 million worth of savings that, in fact, not only 
could be achieved, but were achieved following the completion 
of these assessments. And subsequently, they have done a total 
of 28 assessments, and have shown that there is an aggregate 
savings potential of $163 million in just 28 plants.
    A study by five national laboratories that was completed in 
the year 2000 tried to itemize the opportunities one by one 
available to the Nation to reduce CO<INF>2</INF>, and they 
concluded that over the next 20 years, we could reduce our 
energy consumption by 20 percent, and our carbon dioxide 
emissions by 31 percent, if we put in place an aggressive set 
of policies to try to deal with the market imperfections that 
are hindering these technologies from advancing into the 
marketplace.
    The 31 percent of carbon reductions were driven by--two 
thirds of those reductions were the result of energy efficiency 
improvement, one third by low carbon technologies and it is 
assumed that following those technology advances, we would soon 
see carbon sequestration delivering that next decade of 
opportunities, allowing the Nation to consider--continue to use 
fossil fuels, and meet the need for even greater carbon 
reductions.
    Well, what kind of evidence do we have that if you were to 
put in place an aggressive set of policies and programs, 
including much more R&D, that we would in fact deliver viable 
technology options that consumers would buy? Take a look at the 
National Academy's report that was published earlier this year 
that looked at several dozen energy efficiency projects 
completed by the Department of Energy. They concluded that 
these several dozen projects generated economic benefits of $30 
billion, far exceeding the $7 billion which constituted the 
entire Department of Energy's efficiency budget over that time 
period.
    Just to bring that home, consider one particular project, 
which dealt with the household refrigerator. In the year 1970, 
your household refrigerator consumed nearly 2,000 kilowatt-
hours a year of electricity. Well, as a result of a very 
aggressive public/private research partnership, today, the 
average new refrigerator requires only one third of that 
electricity.
    Well, what about the future? Where are we going to find 
these similar savings? What should we invest in, in terms of 
promising research? Earlier this year, the Department of 
Energy's Basic Energy Sciences Advisory Committee, called BSAC, 
published a report that documents the physical science, basic 
energy sciences, that could deliver the fundamental 
breakthroughs that we will need in order to continue to keep 
the pipeline of cost-effective technologies full. That is, they 
documented that energy efficiency and the no regrets approach 
is not a short-lived phenomenon, that through continued science 
and technology investments, we can provide even better 
technology solutions well into the next several decades.
    Consider some of the materials breakthroughs that have 
occurred recently, nickel aluminide alloys, for instance, are 
being used in plants----
    Chairwoman Biggert. Draw your----
    Dr. Benson. Oh, great.
    Chairwoman Biggert [continuing]. Testimony to a conclusion. 
I know we will have questions for you, though.
    Dr. Benson. Okay. Some of the most exciting scientific 
advancements have been in the materials area.
    In conclusion, energy conservation does not have the 
rugged, romantic appeal of oil drilling or coal mining. It 
doesn't wow us with massive dams or dramatic cooling towers, or 
a large power--solar power towers. It is somewhat invisible, 
and yet, it does make a tremendous amount of energy available, 
prevents pollution and avoids emissions of greenhouse gas 
reductions.
    To secure such double dividends in the future, we need to 
move forward on three major fronts: on policies to address 
market barriers, market imperfections, R&D to accelerate 
technology advancements and programs to facilitate technology 
deployment.
    Thank you very much.
    [The prepared statement of Dr. Brown follows:]

                 Prepared Statement of Marilyn A. Brown

    Chairman Biggert and Members of the Energy Subcommittee, thank you 
for inviting me to comment on the subject of climate change 
technologies. You have asked me to address three issues:

        <bullet>  the attributes of a balanced climate change 
        technology portfolio,

        <bullet>  the ``no regrets'' strategy of targeting cost-
        effective, energy-efficient measures, and

        <bullet>  the non-climate benefits of federal climate change 
        R&D investments.

    Many of my comments on these issues are drawn from a study 
completed in November 2000, called the Scenarios for a Clean Energy 
Future. This study, which I co-led, examined the ability of energy-
efficient and clean energy technologies to reduce U.S. greenhouse gas 
emissions. It was commissioned by the U.S. Department of Energy (DOE), 
was co-funded by the U.S. Environmental Protection Agency, and was 
completed by researchers from five DOE national laboratories.\1\ My 
comments draw on other research, as well, including Technology 
Opportunities to Reduce U.S. Greenhouse Gas Emission (a.k.a. the ``11-
Lab Study'')\2\ and a recent workshop on Basic Research Needs to Assure 
a Secure Energy Future.\3\
---------------------------------------------------------------------------
    \1\ The report can be found at http://www.ornl.gov/ORNL/
Energy<INF>-</INF>Eff/CEF.html
    \2\ The report can be found at http://www.ornl.gov/
climate<INF>-</INF>change
    \3\ The report can be found at http://www.sc.doe.gov/production/
bes/BESAC/reports.html
---------------------------------------------------------------------------

Attributes of a Balanced Climate Change Technology Portfolio

    The balance of a climate change technology portfolio can be 
evaluated along many dimensions. These include market and technical 
risk; time-to-market introduction (near-, medium-, and long-term); size 
of potential greenhouse gas emissions reductions; magnitude and nature 
of other benefits; R&D investment requirements and other costs; and 
distributional impacts (by region, income group, etc.). For carbon 
dioxide, the most important of the greenhouse gases, the RD&D portfolio 
for climate change should also consider the full spectrum of ways that 
carbon concentrations in the atmosphere can be reduced. These include:

        <bullet>  reducing the ``energy intensity'' of the economy 
        (that is, total energy use divided by the gross domestic 
        product),

        <bullet>  reducing the ``carbon intensity'' of the energy 
        system (that is, carbon emissions per unit of energy consumed), 
        and

        <bullet>  removing atmospheric carbon through 
        ``sequestration.''

    These three approaches embody distinct technology pathways to 
reduce greenhouse gas emissions. Energy intensity can be decreased 
through the more efficient use of fossil fuels in transportation, 
buildings and industry and through system designs such as co-locating 
facilities that produce both electrical power and heat with facilities 
that need them. Carbon intensity can be decreased by increasing the 
efficiency of energy production, or by using either fuels that emit 
less carbon or technologies that use lower carbon-emitting fuels such 
as nuclear power plants and renewable energy sources such as 
hydroelectric, wind, and solar power plants. Ways to increase carbon 
sequestration include capturing and storing CO<INF>2</INF> after 
combustion but before it enters the atmosphere, and increasing the rate 
at which oceans, forests, and soils absorb CO<INF>2</INF> from the 
atmosphere.
    To reduce carbon emissions significantly while sustaining economic 
growth, all three of these technology avenues may be needed. The 11-Lab 
Study concluded that these three approaches have different time 
dimensions. The report concluded that:

        <bullet>  In the first decade of this century significant 
        advances in energy efficiency technologies could deliver 
        substantial near-term carbon-reducing impacts by decreasing the 
        energy intensity of the U.S. economy.

        <bullet>  Along with continued improvements in energy 
        efficiency, research-based advances in clean energy 
        technologies could reduce significantly the carbon intensity of 
        the U.S. energy economy during the second decade. A wide range 
        of improved renewable, fossil, and nuclear technologies could 
        be introduced and widely deployed in this period.

        <bullet>  Complementing ongoing advances in efficiency and 
        clean energy technologies well into the third decade, carbon 
        sequestration technologies could add a third important 
        dimension to the package of solutions. Success in this 
        technology area could enable the Nation to continue its 
        extensive use of fossil fuels without harming the global 
        climate.

The ``No Regrets'' Strategy of Targeting Cost-Effective, Energy-
                    Efficient Measures

    Like many other analyses, the Scenarios for a Clean Energy Future 
study described a large reservoir of highly cost-effective energy-
efficient technologies that are available for deployment. Climate 
change strategies that focus on these technologies have been called 
``no regrets'' approaches because they promote technologies that would 
be good for consumers and the economy irrespective of their climate 
change benefits. The fact that such technologies remain under exploited 
leads to two key questions. If energy-efficient technology is cost-
effective, why isn't more of it being used? If individuals and 
businesses can make money from energy efficiency, why don't they just 
do it?
    Although some like to assert that markets are perfect, practical 
experience tells us otherwise. Energy markets, like all markets, are 
plagued by imperfections that can impede the adoption of new products, 
even those that are beneficial and economical. These market failures 
include:

        <bullet>  Misplaced incentives (for instance, these often occur 
        in apartment buildings where landlords pay the utility bills, 
        giving tenants no incentive to conserve)

        <bullet>  Distorting fiscal and regulatory policies (for 
        example, electricity rates that do not reflect the real-time 
        cost of electricity production)

        <bullet>  Unpriced costs (such as the health problems 
        associated with burning hydrocarbons)

        <bullet>  Unpriced benefits (such as the public benefits 
        associated with energy R&D: because the benefits of private-
        sector investments in R&D extend beyond any individual firm, 
        investments are insufficient from a public perspective).
    The existence of market failures that inhibit investment in 
improved energy technologies is a primary driver for public policy 
intervention. In many cases, feasible, low-cost policies and programs 
can be put in place to eliminate or compensate for market 
imperfections, enabling markets to operate more efficiently for the 
benefit of society.
    As one example, consider DOE's Best Practices Program, which has 
developed plant assessment and analysis tools and has conducted plant-
wide assessments of energy-saving opportunities. The goal is to address 
key information barriers to the adoption of energy-efficient measures. 
Improvements to industrial utility systems (steam, compressed air, 
motors, and pumps, etc.) offer tremendous energy-saving opportunities. 
Industrial motor systems, for example, use 25 percent of all the 
electricity consumed in the United States. In just five of the 
program's initial industrial assessment projects, annual energy savings 
of $17 million were realized, with an average payback on investment of 
1.2 years. Altogether, the 28 assessments conducted to date have 
identified aggregate savings of $163 million (390,000 MWh/yr of 
electricity and 10 trillion Btu/yr of natural gas). Full implementation 
of such energy-efficient technologies could save 10 to 20 percent of 
the power used in motor-driven industrial systems, saving billions of 
dollars annually.
    The Scenarios for a Clean Energy Future study concludes that 
accelerating the development and deployment of energy-efficient 
technologies could significantly reduce air pollution and greenhouse 
gas emissions, oil dependence, and economic inefficiencies, at no net 
cost to the economy. The overall economic benefits of the technologies 
and policies that are modeled result in energy savings that equal or 
exceed the cost of implementing the policies and of investing in the 
technologies.
    The results of two scenarios modeled in the Scenarios for a Clean 
Energy Future illustrate the magnitude of benefits that could arise 
from a ``no regrets'' approach:

        <bullet>  The business-as-usual (BAU) scenario assumes that 
        current energy policies and programs continue, resulting in a 
        steady but modest pace of technological progress and improved 
        efficiencies.

        <bullet>  The advanced scenario is defined by an array of 
        policies including a 50 percent increase in cost-shared federal 
        energy R&D; expanded voluntary programs; tax credits for 
        efficient appliances, vehicles, and non-hydro renewable 
        electricity; voluntary agreements to promote energy efficiency 
        in vehicles and industrial processes; appliance efficiency 
        standards; renewable portfolio standards; and a domestic carbon 
        cap and trading system.

    The BAU scenario forecasts that U.S. energy consumption will 
increase from nearly 100 quadrillion Btu (quads) in 2000 to 119 quads 
in 2020. Carbon dioxide emissions are forecast to increase at a 
comparable rate, from 1,346 MtC in 1990 to 1,920 MtC in 2020 (see 
Figure 1).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Under the advanced scenario, the United States consumes 23 quads 
(20 percent) less energy in 2020 than is predicted under the BAU 
forecast. Under the advanced scenario, U.S. CO<INF>2</INF> emissions 
drop in 2020 to 1,330 MtC (31 percent), avoiding nearly 600 MtC 
compared with the BAU forecast. Two-thirds of these reductions are due 
to ``no regrets'' energy efficiency improvements--improvements that 
shave $120 billion off the U.S. energy bill in 2020. Consistent with 
the 11-Lab Study, energy intensity reductions occur quickly through 
energy efficiency investments. Carbon intensity reductions are also 
significant by 2020, and carbon sequestration technologies are assumed 
to take hold in subsequent decades.

Evidence that Climate Change R&D Investments Can Deliver Viable 
                    Technology Options

    What evidence do we have that climate change technology R&D can 
deliver products that consumers, industry, and businesses will choose 
to use? Consider the results of a recent study completed in 2001 by the 
National Academies as reported in Energy Research at DOE, Was It Worth 
It? This study concluded that energy efficiency and fossil energy 
research at DOE has produced economic net benefits:

        <bullet>  Total net realized economic benefits associated with 
        selected energy efficiency programs were approximately $30 
        billion, substantially exceeding the roughly $7 billion in 
        total energy efficiency RD&D investment.

        <bullet>  The realized economic benefits of $7.4 billion 
        resulting from fossil energy programs instituted from 1986 to 
        2000, exceeded the estimated $4.5 billion cost of the programs 
        during that period.

    The National Academies also noted that additional environmental and 
security benefits resulted, and there were significant options and 
knowledge benefits.
    As one example of the many successes enumerated by the National 
Academies, consider the outcome of a major R&D effort that began in the 
late 1970s to improve the efficiency of household refrigerators.
    Between 1977 and 1982, DOE invested approximately $1.6 million in 
R&D to make home refrigerators more energy efficient. Working in a 
public/private partnership with compressor and appliance manufacturers, 
DOE and two federal laboratories identified ways of improving the 
performance of refrigerator compressors, motors, insulation, and 
controls, and they provided test data for use in the setting of 
national standards. These technology investments, in conjunction with 
the issuance of appliance standards, cut the energy use of the average 
new refrigerator in half by the year 1990 and saved U.S. consumers $7 
billion in energy costs from 1981 to 1990 (1999 dollars) (see Figure 
2).

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    In 1997, a DOE-industry cooperative R&D effort developed a 
prototype ``fridge of the future'' that, again, used nearly 50 percent 
less energy than refrigerators then on the market and surpassed the 
2001 efficiency standard for refrigerators. These developments, in 
combination with the 2001 U.S. standard, will save consumers billions 
of dollars in the future.

The Non-Climate Benefits of Federal Climate Change R&D Investments

    The National Academies also note in their 2001 study (Energy 
Research at DOE, Was it Worth It?) that environmental and security 
benefits have resulted from DOE's energy efficiency and fossil energy 
research. These include cleaner air and water, which can produce 
significant public health benefits, and the potential for greater fuel 
flexibility, which is important to national security. In addition, the 
National Academies cite the importance of options and knowledge 
benefits. Options benefits are derived from technologies that are fully 
developed but for which economic and policy conditions are not 
currently favorable for commercialization. Knowledge benefits refer to 
the contribution of R&D to the stock of engineering and scientific 
information and wisdom.
    Productivity improvements, product quality gains, and job creation 
have been important additional collateral benefits of many energy 
efficiency investments. These have been particularly significant in the 
industrial sector, where energy efficiency investments have led to 
greater labor productivity, better products through improved process 
control, greater equipment longevity, and waste minimization. Such 
productivity benefits often exceed the value of the energy saved from 
the introduction of advanced efficiency technologies in industry. 
Consideration of non-climate costs and benefits is important in the 
design of a climate change technology portfolio, because they have a 
significant impact on the likelihood of market success and the ultimate 
delivery of climate benefits.

Promising Energy Efficiency Technology Opportunities

    The Nation has at its disposal an underutilized reservoir of 
currently cost-effective, energy-efficient technologies that can 
deliver significant greenhouse gas reductions, if targeted, market-
based policies are implemented. Other energy efficiency technologies 
are on the brink of cost-effectiveness, but need performance 
enhancements and cost reductions to become viable.. Still other 
technologies require significant science-based improvements to achieve 
major technical breakthroughs necessary for technical and market 
viability.
    The Scenarios for a Clean Energy Future Study describes a range of 
policy options for accelerating the deployment of market-ready 
technologies. It also describes many of the near-term technology 
opportunities that could have a significant impact by 2020, if their 
performance and cost profiles can be improved. The 2003 report by DOE's 
Basic Energy Sciences Advisory Committee (BESAC), Basic Research Needs 
to Assure a Secure Energy Future, describes a set of research 
directions that could deliver the more fundamental and necessary 
breakthroughs. These directions underscore the importance of a strong 
physical sciences investment to enable the technologies that provide 
long-term solutions. A sampling of these research directions are listed 
below:

        <bullet>  Residential, Commercial, and Industrial Energy 
        Consumption

                  Sensors

                  Solid state lighting

                  Innovative materials for new energy technologies

                  Multi-layer thin film materials and deposition 
                processes

        <bullet>  Transportation Energy Consumption

                  Integrated quantitative knowledge base for joining 
                of lightweight structural materials

                  Vehicular energy storage

                  Fundamental challenges in fuel cell stack materials

                  Integrated heterogeneous catalysis

                  Thermoelectric materials and energy conversion 
                cycles for mobile applications

                  Complex systems science for sustainable 
                transportation

        <bullet>  Distributed Energy, Fuel Cells, and Hydrogen

                  Advanced hydrogen synthesis

                  High-capacity hydrogen storage for distribute energy 
                of the future

                  Novel membrane assemblies

                  Designed interfaces

    Based on the BESAC report, it is clear that the technology 
``pipeline'' for reducing the energy intensity of the economy can be 
kept full for several decades. The energy-efficiency ``no regrets'' 
approach is not a short-lived phenomenon. Rather, it can take the 
Nation well into the current century with climate-friendly solutions 
that will allow the economy to continue to grow.
    Consider some of the materials breakthroughs that are already 
advancing the performance of energy technologies. Nickel aluminide 
alloys, developed through a DOE-industry R&D partnership, are 
extraordinarily strong, hard, and heat-resistant. Delphi Automotive 
Systems in Saginaw, Michigan, recently celebrated the installation of 
trays made from this new bimetallic alloy, in its steel carburizing 
heat-treating furnaces. These trays are cutting energy use by five to 
ten percent by making it feasible to operate furnaces at higher 
temperatures and with fewer shutdowns. New steels promise similar 
advantages in a wide range of other applications. Researchers at Oak 
Ridge National Laboratory and Caterpillar have developed a new 
stainless steel (CF8C-Plus) that is stronger and tougher at both high 
and low temperatures than standard steels without costing more. Not 
only the steel itself but also the method of producing it, termed 
``engineered microstructures,'' are being hailed as revolutionary. 
Immediate applications planned for CF8C-Plus include turbocharger 
housings for heavy-duty diesel engines and industrial gas turbines, 
which will allow higher temperature operations, producing significant 
energy savings. Nanoscience materials research promises to produce a 
stream of future breakthroughs that will offer continuing improvements 
to energy technologies.
    The BESAC report also enumerates promising research directions that 
would reduce greenhouse gas emissions through advances in nuclear 
energy and renewable energy resources, by reducing the carbon intensity 
of the energy system. To meet the long-term goal of stabilizing 
atmospheric concentration of carbon, breakthroughs in sequestration 
technologies are also required. Finally, improved technologies are 
needed for measuring and monitoring the quantities and fluxes of 
greenhouse gases in the Earth's atmosphere.

Conclusion

    Energy conservation does not have the rugged, romantic appeal of 
oil drilling or coal mining. It does not wow us with massive dams, 
dramatic cooling towers, or tall smokestacks. But energy conservation 
does make a tremendous amount of energy available, prevents pollution, 
and avoids the emission of greenhouse gases. In fact, over the past 25 
years, energy efficiency has become the number one domestic source of 
energy available for use by U.S. consumers. Nearly a quarter of the 
energy we use today is energy that would have been lost to waste 
without the energy-efficiency technologies that have been developed and 
implemented since the Arab oil embargo of 1973-74. In the absence of 
these energy efficiency improvements, the Nation's greenhouse gas 
emissions would be significantly greater.
    An expanded climate change technology portfolio could significantly 
accelerate the development and deployment of cost-effective, efficient, 
clean energy technologies--technologies that are good for business, 
good for consumers, good for the economy, and good for the environment. 
To secure these benefits, the Nation needs to move forward on three 
major fronts--on policies to address market imperfections, R&D to 
accelerate technology advancements, and programs to facilitate 
technology deployment.
    Thank you for this opportunity to talk with you today. I would be 
happy to answer any questions.

                     Biography for Marily A. Brown

    Marilyn Brown is the Director of Oak Ridge National Laboratory's 
Energy Efficiency and Renewable Energy Program, a $125 million/year 
program of research on advanced energy efficiency, electric 
reliability, and renewable energy technologies. During her 20 years at 
ORNL, she has researched the impacts of policies and programs aimed at 
accelerating the development and deployment of sustainable energy 
technologies. Prior to coming to Oak Ridge, she was a tenured Associate 
Professor in the Department of Geography at the University of Illinois, 
Urbana-Champaign. While on the faculty, she received two NSF grants and 
funding from other sources to support her research on the diffusion of 
energy innovations. She has a Ph.D. in geography from the Ohio State 
University, where she was a University Fellow; a Master's Degree in 
resource planning from the University of Massachusetts; and a BA in 
political science (with a minor in mathematics) from Rutgers 
University. She has authored more than 140 publications and has 
received awards for her research from the American Council for an 
Energy-Efficient Economy, the Association of American Geographers, the 
Technology Transfer Society, and the Association of Women in Science. A 
recent study that she co-led (Scenarios for a Clean Energy Future) is 
the most comprehensive assessment to date of the policy and technology 
opportunities available to the United States to meet its energy-related 
challenges. This study was the subject of a dedicated issue of Energy 
Policy and has played a significant role in international climate 
change debates. Dr. Brown serves on the boards of several energy, 
engineering, and environmental organizations and journals. She is also 
a member of the National Commission on Energy Policy.

                               Discussion

    Chairwoman Biggert. Thank you. All written testimony will 
be submitted for the record. We welcome here today the 
gentleman for Maryland, Mr. Gilchrest, who is not an official 
Member of this subcommittee, but serves on the Science 
Committee, and I would ask unanimous consent to have him 
participate in this hearing. Without objection, so ordered.
    Welcome, Mr. Gilchrest, and now, at this point, we will 
open our first round of questions, and the Chair recognizes 
herself for five minutes.
    My first question is to Mr. Conover. The programs that the 
Administration cites as key to its climate change technology 
strategy appear to be all long-term efforts. If we wait for the 
results from FutureGen, it will be at least 10 years before 
results can reassure private investors that this technology is 
viable, significant penetration of hydrogen will take at least 
15 years or more, and the international fusion experiment, 
ITER, is unlikely to lead to changes in the energy market for 
at least 50 years, and how can we wait so long?
    Mr. Conover. Thank you, Madam Chairman. We need to be clear 
that while the Administration has announced those priorities as 
part of the NCCTI process of focusing on long-term large payoff 
areas, where there is a key role for federal R&D, we are not 
giving up on the rest of the portfolio, which does have 
significant nearer-term impacts, particularly in the area of 
energy efficiency, deployment of best practices, advances in 
renewables, solar, wind and geothermal, which are much further 
along the commercialization path than hydrogen and FutureGen, 
so we are, in fact, pursuing a diverse portfolio that has both 
near and long-term impacts, and look forward to reaping the 
benefits of those as we move forward.
    Chairwoman Biggert. Thank you. Not having seen the first 
installment of the letter from Mr. Card, is there a priority of 
some of these--of the energy efficiencies and the other short-
term solutions?
    Mr. Conover. When you look at the programs that we have in 
place now, the Climate VISION and Climate Leaders, in 
particular, where the Administration is working with trade 
associations and individual companies to achieve voluntary 
reductions in greenhouse gas emissions in the near-term, the 
best practices and the diffusion of commercially available 
technology is really the key to achieving those nearer-term 
goals.
    Chairwoman Biggert. Okay. Thank you. Dr. Brown, you note 
that with an aggressive set of policy and technology 
initiatives, it is plausible for the country to have the same 
or greater level of economic output in 2020, i.e., no net cost, 
as would occur under business usual, and yet, use about the 
same amount of energy as we use today. They apparently would 
also produce fewer greenhouse gas emissions than we produce 
today. That is a pretty remarkable statement. How much of this 
improvement comes from your assumption of increased funding for 
energy efficiency and renewable energy?
    Dr. Brown. If the modeling assumed a doubling of the R&D 
budget for all energy research that deals with climate 
reduction, carbon reduction technologies, and also a variety of 
market-based policies, as well as a carbon cap and trade 
system, we assume would be put in place by the year 2005. The 
study was done in 2000, so now, we are behind on that timeline, 
and we, today, couldn't achieve that all by 2020. It is a 20-
year timeframe, though. I think within 20 years of starting an 
aggressive set of programs and policies such as that, those 
estimates would still hold.
    Chairwoman Biggert. Are there particular areas of energy 
efficiency or renewable energy research that you would 
recommend receive greater emphasis?
    Dr. Brown. The opportunities to reduce energy consumption 
in buildings and industrial facilities, I think, are very 
promising, and deserve greater focus in terms of improving 
those technologies through science-based research. I think they 
are just more difficult to, without strong policies, translate 
the research benefits in the transportation sector into real 
fuel economy savings in the marketplace. The policies are 
really needed there, in combination with the research.
    Chairwoman Biggert. And two thirds of the improvement comes 
from what you call the no regrets.
    Dr. Brown. Yes.
    Chairwoman Biggert. Are there any particularly low-hanging 
fruit that the Government could target for harvest? Where do we 
go first?
    Dr. Brown. Well, you know, that is why it is so difficult 
to sell energy efficiency, because there is no silver bullet. 
It is everywhere. It is your lighting, it is the building 
envelope, it is the equipment that is--the space conditioning 
and throughout an industrial plant, likewise, it is all of the 
ways that energy is used. I do think that material science is a 
fundamental research foundation to deliver many of the 
advances, because if we can operate equipment at higher 
temperatures, for instance, we can gain greater efficiencies, 
as in microturbines, or in diesel engines, and that is an area, 
I think, with great promise.
    Chairwoman Biggert. Thank you, and my time has expired. I 
recognize the gentleman from Texas for five minutes.
    Mr. Lampson. Thank you, Madam Chairwoman. Mr. Rudins, in 
the absence of compelling air quality regulations, what makes 
you think that the famously risk and innovation-averse electric 
utility industry will adopt such revolutionary and expensive 
technology, and why are they interested in participated in 
FutureGen when coal plants are still being plant and CO<INF>2</INF> 
is still not considered to be a criterion pollutant?
    Mr. Rudins. In fact, that is a very good question. I would 
answer that question by saying that one of the concerns 
utilities also have is regulatory certainty, and both for 
traditional pollutants, but especially for carbon, there is 
considerable regulatory uncertainty in terms of what they will 
face in the future.
    Over the last 30 years or so, the investment that we have 
made in coal technology, clean coal technology, has led to ever 
cleaner systems, but ever cleaner systems still are not 
sufficient to deal with what might be on the horizon in terms 
of regulatory requirements and others.
    FutureGen, if it is successful in achieving its goals, is 
the ultimate manifestation of clean coal technology. 
Technology, from an environmental perspective, cannot go much 
further than zero or near zero emission technology. If one 
could successfully develop that class of technology, that, in 
essence, would convey regulatory certainty and you could deal 
with future environmental requirements, regulated and non-
regulated. If you can do it in a cost-competitive manner, you 
in a sense have your cake and you can eat it as well.
    Now, a few years ago, the utility and the coal industry may 
not have embraced FutureGen as aggressively as they actually 
have. You may be aware that a FutureGen alliance has formed 
with the over nine member companies representing over 20 
percent of the U.S.-based coal-based power generation. Over 45 
percent of the U.S.-based coal production, saying we need this. 
We are committed to it, and we will work with you to try and 
make it happen. The National Mining Association has stepped 
forward with a similar statement. So, in essence, the 
electricity generation industry is stepping forward offering to 
do missionary work to establish the technology base for a 
future fleet of power plants and technologies that could meet 
whatever environmental future we foresee.
    Mr. Lampson. Well, through that process, you will capture 
CO<INF>2</INF>. The intention is to reinject it and store it 
some place, put it into unminable coal seams, so a question for 
you, Dr. Benson. How much of that is available in this country, 
but more importantly that that, let me ask this question, and I 
would like for you to comment on it, but let me ask this one. 
In the case of sequestration in deep saline aquifers, will 
there be significant amounts of displaced or produced water, 
and if so, how will be handle such large quantities of water?
    Dr. Benson. You really need to look site by site, whether 
or not there will be significant quantities of displaced water. 
The best sites, those that are very large, such as the Frio 
Formation in the Houston area, can accommodate such a 
tremendous quantity of CO<INF>2</INF> that it is unlikely there 
would be produced brines, and if they did, you would be pushing 
them out into the ocean, not onto the land, so it really 
wouldn't be an issue there. But it is an issue, and again, you 
know, geologic sequestration is not a panacea. It needs to be 
done carefully with all the appropriate site characterization 
and monitoring and so forth.
    Mr. Lampson. These unminable coal seams, make--just one 
quick comment on it. How much of that is available, and where 
do you find them? Where are they?
    Dr. Benson. Well, I am not an expert on the quantity of 
unminable coal seams. There are, in the Rocky Mountain region, 
there are a number of significant deposits. There is also some 
new work by the U.S. Geological Survey showing significant 
deposits in the Southeast that may be amenable to this kind of 
technology as well. That is some of the work that needs to be 
done to characterize just how much and where this could be 
accomplished.
    Mr. Lampson. Dr. Brown, in H.R. 238, this Committee 
authorized the construction of a network of regional advanced 
energy technology transfer centers to bridge the gap between 
development of energy-efficient technologies and full-scale 
commercialization, and this provision has been included in the 
draft Research and Development Title of the Energy Bill, H.R. 
6. Are you aware of this provision, and if so, how do you think 
initiatives such as this would fit into a national climate 
change initiative?
    Dr. Brown. I have to confess I am not familiar with that 
initiative, but I want to learn more, because it sounds like it 
is very promising and would help to bridge that gap between 
science and marketplace improvement, so it sounds like an 
excellent way to proceed.
    Mr. Lampson. Thank you very much. My time is up.
    Chairwoman Biggert. Thank you. The gentleman from Georgia, 
Mr. Gingrey, is recognized for five minutes.
    Mr. Gingrey. Thank you, Madam Chairman. Mr. Rudins, in her 
testimony, Dr. Benson indicated a cost range of $3 to $10 per 
ton for carbon disposal, not including the cost of carbon 
capture. This is certainly in the range of the Department of 
Energy goals. What are the costs of CO<INF>2</INF> capture, and 
how soon do you see DOE's goals being reached?
    Mr. Rudins. The greater cost component, in fact, is the 
capture component. Today's technology, if you were to employ it 
such as a means coverage with existing power plants, would be 
very costly indeed, much more so than just the disposal costs. 
But already, technologies that are coming out of the 
laboratory, like the clathrate process, to name one, offers the 
potential, when integrated with advanced systems, such as IGCC, 
to reduce that cost by perhaps an order of magnitude, as well 
as the energy costs associated with it.
    The goal that we have for the Department sequestration 
program is to get the costs to $10 a ton carbon, and that is 
capture and disposal. The current price point in terms of 
laboratory technology, like the clathrate process, is still at 
the laboratory stage is in the $30 or so range.
    Mr. Gingrey. Mr. Conover, this question is for you. Given 
the long time horizons of carbon sequestration and hydrogen 
technologies, what does the Administration plan to do to meet 
its near-term goal of reducing the carbon intensity of the 
economy by 18 percent by the year 2012?
    Mr. Conover. Thank you, Congressman. Again, this goes back 
to the voluntary partnerships that the Administration is 
forging through Climate VISION and Climate Leaders, 
particularly focused in on areas of energy efficiency, the 
buildings and industrial technologies that Dr. Brown mentioned, 
further advances in solar, wind and geothermal, all of which 
are still robustly funded in the Administration's budget.
    Mr. Gingrey. And the Administration has stated that it 
supports stabilization of greenhouse gas concentrations in the 
atmosphere. By what date will your technology efforts be able 
to achieve this goal at current rates of funding?
    Mr. Conover. Well, the issue of timing on the stabilization 
goal is an important one. Our philosophy is moving forward 
aggressively on investments in technology with both long and 
near-term impacts, and as the scientific certainty advances 
with respect to both what the levels need to be and how quickly 
we need to achieve them, our mission is to provide a diverse 
portfolio of technology that allows policymakers to respond to 
that information as it becomes clearer.
    Mr. Gingrey. And I would like to ask Mr. Rudins on this 
one. Several experts have told us that a full-scale single site 
sequestration experiment without a power plant would cost about 
$50 million over 10 years, including the purchase of 
CO<INF>2</INF>. Your testimony includes a cost estimate 
sequestration that is over four times this number at $224 
million. Can you explain how that your number was reached?
    Mr. Rudins. I can't comment comparatively, because I 
haven't seen the $50, $50 million estimate, but the cost that 
you see incorporated in FutureGen involves extensive 
instrumentation of the site, development of the site and 
extensive monitoring for at least 10 years and beyond, so I 
don't know if it's an apples to apples comparison. It also 
allows for innovation, new technology development. It allows, 
within that cost, enhanced modeling and research support 
activities, so it is not just go to the site, dig a hole, or 
drill a hole and pump CO<INF>2</INF> in there. It is 
essentially a full-scope research project in addition to that. 
But I couldn't comment specifically without seeing the 
estimates you are talking about.
    Mr. Gingrey. I yield back my time at this point, Madam 
Chairman.
    Chairwoman Biggert. Thank you. The Chair now recognizes the 
gentlewoman from California, Ms. Woolsey.
    Ms. Woolsey. Thank you, Madam Chairman--Chairwoman. I would 
like to each of you, from your vantage point in what you know 
so much about--you are great input for all of us, you are just 
a great resource. But you come from different places, each one 
of you. What do you, from your vantage point, consider to be 
the one most serious threat to our climate, and will voluntary 
compliance meet the needs and come up with the right solutions 
soon enough? So why don't we start with you, Mr. Conover.
    Mr. Conover. Thank you, Congresswoman.
    Ms. Woolsey. And I know there is no one, but you tell me 
your one that you think is the most important.
    Mr. Conover. Well, the issue is that--the real issue is 
achieving the goal of long-term stabilization at levels below 
which dangerous interference with the climate will not occur. 
That is the goal. The question is how does that translate into 
atmospheric concentrations and over what timeframe? So the most 
important thing we can be doing here is ensuring that we have a 
sufficient array of technologies, both in the near and the 
longer-term, that as our investment portfolio moves forward, 
technologies succeed and fail based on a variety of conditions, 
we are able to be flexible and respond appropriately as time 
moves forward. It is not just a voluntary approach. It is a 
voluntary approach coupled with significant federal R&D 
investment, and we believe that is the best way to address this 
challenge.
    Ms. Woolsey. Mr. Rudins.
    Mr. Rudins. Let me respond to you in the context of the 
FutureGen technology and the project, and your thought on 
voluntary compliance. The logic behind the FutureGen project is 
if one can develop the technology that not only deals with 
carbon emissions and traditional emissions and boosts the 
performance of that technology, but does so in a cost-
competitive fashion, meaning the costs of electricity we are 
projecting is no more than a 10 percent growth in the cost of 
electricity, and if we are successful, perhaps at no growth in 
the cost of electricity.
    If that kind of technology is developed, it would be 
rational that the industry would opt for deploying a cleaner 
technology that is at or close to the same price point than a 
less clean technology. So FutureGen does have the potential for 
being a highly desirable technology with--and without any 
mandatory controls as a requirement.
    Ms. Woolsey. Dr. Benson.
    Dr. Benson. So, first to address your questions bout the 
biggest concerns regarding climate change. A number of studies 
have been done recently which suggest that sea level rise would 
be amongst the first things to be concerned about, and second, 
a broad issue than climate change alone, but some recent 
studies suggest that acidification of the surface ocean is 
already taking place today, and that can potentially impact the 
ocean food chain, starting with the most productive area of the 
region, so those are the kinds of concerns.
    With regard to voluntary compliance, I am no expert on 
this, but in the circles that I spent my time, largely with the 
oil and gas industry, there is certainly the feeling that 
voluntary compliance, at least in the short-term, will not be 
enough to motivate them in most cases.
    Ms. Woolsey. Dr. Brown.
    Dr. Brown. Yes, I guess that in terms of the impacts of 
climate change, in addition to the global warming impact, sea 
rise level, et cetera, I would be concerned about the increase 
in extreme weather events, more droughts and more floods, not 
the net impact, but the extremity of the impacts. And I guess I 
think you asked what might be a high priority for action. I 
would like to offer that I believe the Federal Government needs 
to lead by example in a stronger way. We do do some of that, of 
course, but--and not just the Federal Government, but State and 
local government as well, so show the steps that can be taken 
to address, reduce greenhouse gas emissions cost-effectively.
    Ms. Woolsey. Thank you. Mr. Conover, when you talk about 
the goal of the Federal Government, long-term stabilization, I 
never hear anything about when and at what levels, so what 
stabilization levels for CO<INF>2</INF> parts per million would 
be the aim for the Federal Government and when?
    Mr. Conover. Well, thank you for that. That is the issue of 
a flexible portfolio that employs a diverse set of 
technologies, because we don't have a specific target. We don't 
know exactly when we need to hit that target, but we need to be 
taking action now. As the scientific uncertainty decreases and 
we get better information moving forward, making these 
investments today positions us better for the future to address 
those problems as they become more clear.
    Ms. Woolsey. Well, thank you very much. I have to say I 
think the future is here, and that doesn't make me feel very 
confident. I think we are behind the gun on all of this, and we 
had better be boogying, or we are going to be in big trouble. 
So, thank you, my time is up.
    Chairwoman Biggert. The gentlelady's time has expired. The 
gentleman from Michigan, Mr. Ehlers, is recognized for five 
minutes.
    Mr. Ehlers. Thank you, Madam Chair. I have a host of 
questions, far more than I can do in five minutes, so I hope 
there is a second round while I am still here. The first 
question, to Conover or Rudins, I am not sure which one would 
be best. What sort of energy penalty are you looking at for 
separating, compressing and injecting the CO<INF>2</INF>, and 
Mr. Rudins, you just mentioned 10 percent increase. Where do 
you get that figure? It seems to me that it is going to be a 
lot more than that, unless you are going to locate your power 
plants right on top of the coal field and inject right back in.
    Mr. Rudins. My 10 percent figure was in terms of cost of 
electricity. You asked about the energy penalty.
    Mr. Ehlers. Right.
    Mr. Rudins. If you were to take an amine scrubber and add 
it to an existing coal plant, the energy penalty is probably on 
the order of 30 percent of the gross power output of the plant. 
If you were to take a technology like the clathrate technology 
that I described, that works effectively, most effectively with 
a high CO<INF>2</INF> concentration stream of the type that you 
would get, say, from oxygen blown gasification, which would 
have about a 90 percent CO<INF>2</INF> component, there the 
energy penalty by the developer is estimated to be in the five 
to eight percentage point range, as opposed to the 30 or more 
percent point for a traditional amine scrubber, and the 
developers are continuing to try to bring that energy penalty 
further down. But in terms of the costs of electricity 
differential, when we are talking about FutureGen, it is the 
power plant plus sequestration costs, so there are 
opportunities for driving down the cost of the power plant, the 
cost of the electricity generation.
    Recognize that we are also talking about co-producing 
hydrogen, so there are a number of revenue streams that are 
part of that equation when I make that estimate of a 10 percent 
at most cost of electricity penalty.
    Mr. Ehlers. And how do you propose to produce hydrogen?
    Mr. Rudins. In this particular concept, we would gasify gas 
through an oxygen blown-gasifier, or gasify coal, I should say, 
then go through a shift reactor to maximize the hydrogen 
content, then take the hydrogen plus CO<INF>2</INF> gas stream 
and separate it out, separate out the CO<INF>2</INF> through 
processes like the clathrate process or membrane technology, 
and then use the hydrogen to power a fuel cell or hydrogen 
turbine, and then sequester the CO<INF>2</INF> stream.
    Mr. Ehlers. So would this be a combined generation plant, 
then?
    Mr. Rudins. It would be.
    Mr. Ehlers. So you can electrical energy from the 
combustion of the carbon, and you subtract--and you generate 
electrical energy through the fuel cell, using the hydrogen.
    Mr. Rudins. There are two possible configurations, one 
using the carbon, the other is just going all the way to 
hydrogen and using the hydrogen in the turbine, rather than 
combusting the carbon, so there are several possible 
configurations there.
    Mr. Ehlers. But the expense of operating a plant like that 
is much greater than the normal coal-fired plant, isn't it?
    Mr. Rudins. That is mainly because of the--new technology 
always costs more than mature, established technology. Today, 
gasification based systems have an initial capital cost about 
20 percent higher than a traditional coal plant, but that price 
point differential is coming up, and future plants will be more 
efficient, so while there may be--while higher capital costs 
may remain, the cost of electricity, through efficiency 
improvements, would come down.
    Mr. Ehlers. Let me just say I am skeptical about the 
processes you have described. I find difficult to believe that 
you would be able to get the price down that much. I would 
guess it is probably a 30 percent penalty in either one. But 
let me pose the next question, then. If that is true, what 
happens to the competitiveness between nuclear power and coal 
power?
    Mr. Rudins. I am not sure how to answer that question, 
because you essentially have to postulate a future scenario, 
and----
    Mr. Ehlers. That is what you have just been doing.
    Mr. Rudins. Well, but a future scenario, in terms of is 
there valuation for the carbon or not. If you were to look at 
today's coal-based prices and add 10 percent to it, I am not 
sure where the price point is for nuclear. You may have that 
knowledge. I don't off the top of my head.
    Mr. Ehlers. I don't. Does anyone here have that knowledge? 
Most of you are from the Department of Energy. Well, I am just 
curious. Obviously, France and India have decided it is cheaper 
to produce electricity using nuclear power instead of fossil 
fuel, so the price differential can't be that much at this 
point.
    Mr. Conover. Right, and that is the thrust of several of 
the Administration's programs on the nuclear power side. Our 
belief is that you are going to need, looking out over the next 
century, in order to provide clean energy, you are going to 
need all of these options, nuclear and sequestered fossil fuel.
    Mr. Ehlers. And in terms of transportation-produced 
CO<INF>2</INF>, are you assuming that is all going to be 
hydrogen fuel cell driven?
    Mr. Rudins. I am--did you say transportation-produced 
CO<INF>2</INF>? In that particular scenario, with FutureGen, 
the first line of attack is to deal with the CO<INF>2</INF> 
emissions with power plants. The co-production of hydrogen 
would in fact allow hydrogen to also be available for the 
transportation fleet, yes, in that particular scenario.
    Mr. Ehlers. Yeah. The question again is, at what cost 
compared to alternative methods of production?
    Mr. Rudins. Well, currently, the projection for FutureGen, 
or I should say, the goal, is to produce hydrogen at 
approximately $4 a million BTU or less. The present commercial 
price point for hydrogen is the price of natural gas plus about 
$2, give or take.
    Mr. Ehlers. I believe my time has expired. Thank you.
    Chairwoman Biggert. The gentleman is correct. The gentleman 
from Illinois, Mr. Costello, is recognized for five minutes.
    Mr. Costello. Madam Chair, thank you very much, and I thank 
you and Mr. Lampson for calling this hearing today. Mr. Rudins, 
as you know, we have a very deep interest in the state of 
Illinois in FutureGen. We met earlier this year with the 
Assistant Secretary, Mr. Smith, talked about it and Dr. Miller 
traveled to Southern Illinois University in Carbondale back in 
July, where myself and my colleague, Congressman Shimkus, as 
well as our Senators and the Governor, sponsored a forum where 
we brought industry and government together to talk about 
FutureGen, and as you know, we believe that we have all of the 
natural resources to make FutureGen a success in the state of 
Illinois. Since I have limited time and I have several 
questions, let me get directly into questions.
    One is I wonder if you might lay out for the Subcommittee 
where we are as far as the process is concerned. As far as 
criteria, site selection, naming the consortium, preliminary 
environmental studies and all of those types of things.
    Mr. Rudins. We are presently at very early stages. We are 
now going through an internal departmental process called the 
CD0 process, to in fact enable us to then formally move 
forward. You may recall there was an RFI, request for 
information, that was issued that laid out an approach the 
Department proposed, including negotiating with a qualifying 
industry consortium to move forward.
    Before we can get to that point, we have to go through our 
internal process, which I anticipate probably will take us 
through this calendar year, maybe into the next calendar year, 
at which point, then, we need to make a decision as to whether 
we are going to go forward in an--initially, a noncompetitive 
approach in terms of negotiating with the industry consortium, 
as the RFI laid out, or whether we would do that competitively.
    In all cases, ultimately, the procurement of the components 
for FutureGen and the site will all be done competitively, and 
will be part of a formal, transparent, competitive process. But 
once we complete that step, then we would enter into either 
negotiations with a qualifying consortium or we would initiate 
a competitive procurement that would lead to selection of a 
qualifying consortium. That is about a one-year differential 
there, whether we do it noncompetitively or competitively.
    After we initiate negotiations with a qualifying 
consortium, that would likely be a very complex cooperative 
agreement to negotiate in dealing with the various facets of 
such a project. It could take four to six months to negotiate 
such a cooperative agreement, after which the first priority 
would be to develop the key criteria, technical criteria for 
site selection that would then be the basis of a competitive 
procurement, but as I laid out that approximate timeline, you 
can see it is--we have got quite a bit of work to do before we 
are to the point of initiating site selection. I don't know if 
that fully answers your question.
    Mr. Costello. Well, if you--do you have a timeline chart, 
in other words, do you have a goal in mind as to when the 
negotiations will take place, and hopefully, a consortium will 
be named?
    Mr. Rudins. We basically have two timelines, one is if we 
go the noncompetitive route, and the other adds a year if one 
goes competitively.
    Mr. Costello. And when will you make that decision, when 
will the Department make the decision if it is going to be 
competitive or if it is going to be noncompetitive?
    Mr. Rudins. Hopefully before the end of this calendar year.
    Mr. Costello. But at the end of this year, we will know if 
you are going competitive or noncompetitive.
    Mr. Rudins. That is correct.
    Mr. Costello. How long do you expect that it will take to--
assuming that you go noncompetitive, how long will it take to 
negotiate? What would you anticipate?
    Mr. Rudins. Well, recognize that at this point in time, it 
is simply my best estimate, but I would say four to six months.
    Mr. Costello. So sometime in the summer or fall, let us say 
the summer of 2004, you will have a consortium in place and you 
will then be able to proceed to evaluating sites?
    Mr. Rudins. Well, the first step will be--and we are doing 
all of this in parallel, developing the key technical criteria 
that would be needed for doing that. We expect to have it as a 
very open and transparent process and--much like we have done 
in former competitive stations, we could very well have one or 
more public meetings to talk about the criteria that have been 
developed and the process that we are proposing to pursue for 
that competitive selection.
    Mr. Costello. And the last question, and I know that the 
Administration and the Department of Energy has estimated that 
it will cost about $1.1 billion, this FutureGen prototype 
plant, and I understand that the goal is about 50 percent 
private investment, 50 percent federal. I don't know if that 
has been determined yet, but let me just ask you where are we 
in the funding process? Has the Department of Energy, the 
Administration, requested funds? I know that there is $9 
million provided in the Interior Appropriations Bill for 
FutureGen, but are there other appropriations that you have 
requested?
    Mr. Rudins. Yes, a couple of questions. First, we have not 
yet made a final determination on funding. You are aware we 
just received some funding guidance in the '04 Appropriation 
Bill that we are now reviewing. That guidance indicated the 
appropriateness of less than 50 percent cost-sharing, 80/20 for 
research, prototype kind of components, and 50 percent cost-
sharing for demonstration components, so we are still working 
through that in terms of making a final determination with 
regard to that.
    With, and I forgot the other part of your question, sir.
    Mr. Costello. Have you requested additional funds other 
than the $9 million in the Interior Appropriations Bill?
    Mr. Rudins. No, just the $9 million. We did request 
authorization to use prior year Clean Coal funds, prior--Clean 
Coal funds appropriated in prior years, and in the '04 
Appropriation Bill, we received authorization, or in effect, 
appropriation of $9 billion in response to that request, which 
is the sum of money that we need for the first year.
    Mr. Costello. And how much is that the first year?
    Mr. Rudins. $9 million, the DOE share, for the first year.
    Mr. Costello. Madam Chair, thank you. I thank you, Mr. 
Rudins.
    Chairwoman Biggert. Thank you, Mr. Costello. The gentleman 
from Maryland is recognized for five minutes.
    Mr. Gilchrest. Thank you, Madam Chairman. I have a few 
questions, so I apologize for asking you for a quick response, 
so you can answer yes, no, or maybe to most of these questions. 
I just want to get a sense of how you feel. Based on the 
evidence that our climate is changing, I guess people have some 
evidence that the climate is changing. There is not too many 
people who still think that we are okay.
    Do you feel that our policies are sufficient to mitigate 
the full range of the potential consequences of climate change, 
if we look at weather patterns, more rain, less rain, the 
potential significant biological consequences, the disease 
consequences, sea level rise, acidification of sea level 
surface, et cetera, et cetera. Do you think our policies right 
now, and you probably already looked at this, and I was just 
showing it to Vern, but this week's Science Times and New York 
Times is mostly about climate change, and they have some 
really--and I know you can't learn everything you need to know 
in one article, but there has been articles like this and books 
written over the past decades about the potential consequences.
    One of the things I read in this article was that the 
Amazon jungle might be an exporter of CO<INF>2</INF>, not a 
sink, as a result of a number of different variables that are 
going on down there, so have we taken the full range of 
consequences into consideration? Do we have, the Administration 
in particular, a sense of urgency about what is going on with 
the fragile biosphere as a result of human activity? Do we 
need, you might want to answer more than just yes, no, maybe on 
this, because I am going to--do we need a Manhattan Project? We 
are going to unload, this afternoon, $87 billion on Iraq. I 
voted for it. I am in support of what we are trying to do 
there, that is $87 billion. Are our policies right now 
sufficient enough to meet the consequences of the climate 
change? Do we need a Manhattan Project? Is there a sense of 
urgency about this, and is there a need for a sense of urgency?
    Mr. Conover. Well, I am not sure, Congressman, what the--
what a Manhattan Project in today's dollars would equate to, 
but this Administration is very proud of $1.6 billion 
investment in climate change related technologies. The really 
groundbreaking and leapfrog technologies, initiatives like the 
Hydrogen Fuel Initiative, ITER, FutureGen, we are putting the 
pieces on the table and making the investments to----
    Mr. Gilchrest. Right. I apologize because I may not be 
around for the next round of questions, and I know everything 
that you are doing, and I have heard Vern discuss the hydrogen, 
coal sequestration, those kinds of things, and I have had 
meetings with the Department of Energy about this issues, and 
the particulars and the details of them. I think the overall 
riding sense that I would like to leave here with is we are 
okay, we are on the right track.
    Mr. Conover. We believe we are on the right track and 
making the investments we need to make today to be prepared to 
respond to the science as it answers these questions about the 
consequences. I think it is important to note that one area 
where there is great scientific uncertainty are the 
consequences of climate change in the long-term, but our focus 
is on mitigation technologies, not adapting to those 
consequences, but mitigating greenhouse gas emissions into the 
atmosphere.
    Mr. Gilchrest. Thank you.
    Mr. Rudins. I have to respond to you in the context of my 
responsibility in the FutureGen. I can't imagine a more 
aggressive goal than the development of coal-based power 
generation technology with zero emissions. To me, it is the 
ultimate manifestation of clean coal technology, and if we are 
successful in achieving that, it will be a remarkable 
achievement in that you can continue to use fossil fuels with 
zero emission, and more so if we are successful with our 
economic targets, to do so at competitive electricity prices.
    Mr. Gilchrest. Thank you. Can you sequester CO<INF>2</INF> 
without it leaking? That would be for Dr. Benson.
    Dr. Benson. Yes, you can.
    Mr. Gilchrest. Okay. Can we sequester more CO<INF>2</INF> 
than we are producing so we have a net reduction in 
CO<INF>2</INF>?
    Dr. Benson. Yes, we can.
    Mr. Gilchrest. Okay. Good. But for how long, Vern says. 
Probably for our lifetime, anyway. Now, we want it for 
thousands of years.
    Dr. Benson. Yes.
    Mr. Gilchrest. Good.
    Dr. Benson. Thousands of years.
    Mr. Gilchrest. Okay. Dr. Brown.
    Dr. Brown. Yes, I guess I would like to draw to your 
attention that I do not believe we have an adequate program in 
the area of climate adaptation. In some instances, it may be 
more cost-effective for us to figure out how we can protect 
ourselves against the consequences of climate change, in 
combination with, of course, trying to invest in carbon 
mitigation efforts. So I would just offer----
    Mr. Gilchrest. Do we need a two-track policy?
    Dr. Brown. We do.
    Mr. Gilchrest. Mitigation and adaptation.
    Dr. Brown. Adaptation.
    Mr. Gilchrest. Because we may have crossed the line as far 
as----
    Dr. Brown. We may need both.
    Mr. Gilchrest. Yeah.
    Dr. Brown. In the end. Both offer solutions. And also, I 
believe we need to invest more in assisting the developing 
world, help them to develop along a pathway which is less 
carbon intensive, and we could use more resources to do that, 
and the benefits to the Nation would include export 
opportunities for our clean technologies.
    Mr. Gilchrest. Maybe we should eliminate the space program 
for a decade. What do you think about that?
    Dr. Brown. No, I wouldn't. No.
    Mr. Gilchrest. Just kidding. Thank you, Madam Chairman.
    Chairwoman Biggert. Thank you. The gentleman from Oregon, 
Mr. Wu.
    Mr. Wu. Thank you, Madam Chair. I would like to take a step 
back. I realize that you all are implementing policy, 
developing policy, but I would like to ask you the same 
question that I have been asking meteorologists and atmospheric 
scientists for 10 or 15 years, and that is just first of all to 
go down the row, one way or the other, just take a step back 
and--what's--what probability, 0.30, 0.50, 0.80, higher or 
lower, would you assign, based on the evidence that we 
currently have available, I guess, there are some Members of 
the Full Committee who continue to have serious doubts about 
whether there is a real phenomena of atmospheric or climate 
change because of greenhouse gases, so I would just like to go 
down the row, and I have to say that over a period of time, I 
have been getting, it seems, like a steady change in 
probabilistic assessments from meteorologists and so on, and I 
would like to hear from you all, first your assignment of 
probabilities that there is an effect currently occurring. 
Either direction.
    Mr. Conover. Well, I will start by saying the beauty of 
being the Director of the Climate Change Technology Program and 
not the Climate Change Science Program is I don't have to 
answer that question. I know----
    Mr. Wu. I would like to know what the implementer things 
about--whether the implementer believes there is a real problem 
or not. I think that is highly relevant.
    Mr. Conover. We have our eye on the goal, sir, yes, and we 
are charged with facilitating the development and deployment of 
these technologies.
    Mr. Wu. But what I asked for is a number.
    Mr. Conover. I am not qualified to give you that number, 
sir.
    Mr. Rudins. Unfortunately, I have to give you a similar 
answer. I am not really qualified to give you that number, but 
to respond to you in the fashion that again, with the 
development of the--of FutureGen, that question perhaps doesn't 
even need to be answered in the context of fossil fuels. If 
that technology is, again, developed and available for 
deployment, a zero emission technology, then whatever the 
predicted future is, that will be one possible solution path 
for dealing with it.
    Dr. Benson. Unfortunately, I am not a meteorologist and an 
expert in that topic, so I can't give you a probability. I 
will, however, say I think that we should work as aggressively 
and as quickly as possible to develop a suite of mitigation 
options, so that we are prepared to implement them both in the 
short, medium and long-term.
    Mr. Wu. Dr. Brown.
    Dr. Brown. Yes, I would refer to the conclusion of the 
Intergovernmental Panel on Climate Change, which said something 
like the body of the evidence is overwhelming, my probability 
would be very high.
    Mr. Wu. So, Dr. Brown, you have a very high probability, 
and as for Dr. Benson and Mr. Rudin's and Mr. Conover, would it 
be fair to say that whatever probability you all might assign 
to it, that you view this as--you are completely motivated to 
work on mitigation or solutions?
    Mr. Conover. Absolutely, sir.
    Mr. Wu. And perhaps, Dr. Brown, since you are the only 
person who was willing to take a stab at the number, I read an 
article a long time ago, I can't remember whether it was in 
Nature or Science, but it said that climate change may be 
paradoxical, that is, we get these greenhouse gases, we get 
some temperature rise, but instead of steady creep in 
temperature, we may flip right into an Ice Age instead. I 
haven't been able to track that. If you know anything about 
that, I am dying to know whether it is going to get warmer or 
colder.
    Dr. Brown. I will get back with you. That is the best 
answer.
    Mr. Wu. Thank you.
    Mr. Gilchrest. Would the gentleman yield?
    Mr. Wu. Yes, I would.
    Mr. Gilchrest. Mr. Wu, there is some fascinating evidence 
about the global warming causing the slowdown or the stop of 
the ocean currents, the conveyor belt which drives that, and if 
that happens, that could trigger an Ice Age, because you don't 
have the dispersal of warm air from the equator getting up to 
the more northern regions around the Arctic Circle, and it is a 
little bit complicated, but there is a potential to trigger an 
Ice Age within less than 20 years, so----
    Mr. Wu. I thank the gentleman from Maryland, and I have 
also read about how precipitation could cause reflectivity to 
change, and that could be another effect, but the gentleman has 
me at a disadvantage. He has the Tuesday Science section from 
the New York Times, and I am afraid that that is probably as 
technical as I can get these days, so if the gentleman wouldn't 
mind loaning it to me at some point, I surely will appreciate 
it, and with that, Madam Chair, I am pleased to yield back the 
balance of my time.
    Chairwoman Biggert. The gentleman from----
    Mr. Lampson. I want to butt in----
    Chairwoman Biggert [continuing]. Texas.
    Mr. Lampson [continuing]. For a second, and ask Mr. 
Gilchrest also. Remember when we were in--at the South Pole, we 
were told something about those huge icebergs----
    Mr. Gilchrest. Yes.
    Mr. Lampson [continuing]. That were blocking, I forgot what 
it was.
    Mr. Gilchrest. The Ross Sea.
    Mr. Lampson. The Ross Sea, that actually could potentially 
change the climate of the Earth, or the temperature of those 
flows of water through the oceans.
    Mr. Gilchrest. We saw a regional climate change right down 
there in the Antarctic, in that region around McMurdo Sound, 
when this--two huge icebergs closed off the outlet of the Ross 
Sea----
    Mr. Lampson. Right.
    Mr. Gilchrest [continuing]. To that southern part of the 
Pacific Ocean. When it did that, the frozen Ross Sea could not 
get out any more, so even though global warming caused those 
icebergs to break off, the region around McMurdo Sound became 
much colder, because the ice couldn't be pushed out by the 
wind, and therefore, that precipitated another mini regional 
climate change, but made it colder. There is a great trend----
    Chairwoman Biggert. Maybe at our next hearing, we will have 
to include icebergs. I have a couple of more questions, so 
maybe all of our Members don't, but I would like to proceed. 
Mr. Conover, in the report that was delivered this morning, the 
Department notes that there--well, less than 10 technologies, 
10 or less, I don't know what that means, submitted that were 
rated high in technical merit, responsive to the criteria. 
These were reports that were in response to the request for 
information, so they came from various places, and yet, were 
either novel or created but kind of fell through the current 
DOE programs, so were ineligible for funding. Do you know what 
some of these technologies are, and how DOE might help to 
ensure that these ideas perhaps will become commercialized.
    Mr. Conover. Thank you, Chairwoman Biggert, and let me put 
that in context. The RFI that you are discussing and the report 
that we are providing today, was sent out in November of 2002, 
and closed in January of this year. It was asking for 
innovative approaches to climate change technology, and the 
intent was to try to determine whether there were concepts out 
there that were not being addressed by the existing procurement 
programs or would be unable to be addressed by the existing 
procurement programs, that RFI garnered about 180 different 
concepts proposed by 79 different entities.
    All of those entities, in proposing those concepts, have an 
expectation of privacy with respect to their specific ideas, 
but I can say that because we are--we were able to move forward 
on one of the areas that is an extremely important, novel, sort 
of applied strategic research idea, and that is microbes that 
could potentially both produce hydrogen and sequester carbon 
dioxide. The outcome of the analysis that is discussed in that 
report was that the DOE Office of Science is able to modify its 
procurement programs and begin to incorporate that kind of 
program into its efforts, so while we were looking for gaps, 
what we were able to do as well was help the programs fine-tune 
their procurements so that they can gather in concepts such as 
that in the future.
    Chairwoman Biggert. So, the Department will continue to 
monitor those programs and perhaps at some point, more of them 
will fit into something that can be used.
    Mr. Conover. Yes, we have requested funding for a 
competitive solicitation program that would have followed on to 
the request for information. Haven't received funding from 
Congress on that yet. If we remain unsuccessful in getting 
funding for an actual procurement program along those lines, we 
may continue the request for information process to continue to 
survey the community and ensure that these concepts are brought 
forward and incorporated into the existing programs.
    Chairwoman Biggert. Well, it makes it easier for Congress 
to fund something that they know what it is, I suppose. Dr. 
Benson, are candidate sites for geologic sequestration located 
throughout North America? Are there areas of North America that 
don't have any candidate sites?
    Dr. Benson. The majority of areas with large concentrations 
of CO<INF>2</INF> sources are located within close proximity to 
potential storage sites. If you look at the Northwest, the 
rocks that underlay that area may or may not be suitable. There 
are some studies that are being done by Batel to look at 
whether those kind of formations would be acceptable, too, but 
at this point, we don't know. But by and large, yes, there are 
reasonably close storage sites.
    Chairwoman Biggert. Okay. What is the minimum number of 
sites that need to be tested to convince the scientific 
community that carbon sequestration is a viable technology?
    Dr. Benson. I think that demonstration projects, or you 
know, large scale pilots in about five different regions, I 
think something in the Gulf Coast area, something in the 
Southeast, something in the Midwest with the Mount Simon 
Formation and something in the West with the Central Valley of 
California would go a long, long way toward persuading 
scientists that this was a good strategy to pursue.
    Chairwoman Biggert. And how long do you think this will 
take?
    Dr. Benson. I think a program, aggressively implemented 
now, I think that within 10 years or so, we could have a very 
good idea of whether there would be good sites and what the 
capacity would be in those regions.
    Chairwoman Biggert. Would you agree with that, Mr. Rudins?
    Mr. Rudins. Yes, I would.
    Chairwoman Biggert. Mr. Lampson, would you?
    Mr. Lampson. No more questions, but just a wrap-up comment, 
it is hard to consider all of these things and fit it into 
context with what we are living. Mr. Gilchrest made the comment 
that we are providing $87 billion in Iraq right now, and I, 
too, voted for that. Yet we put that in the context of spending 
a billion dollars on research on something that has in its 
hands, the future of this whole Earth, and it gets a little 
frightening, where we are placing our priorities, where we puts 
tens or hundreds of billions of dollars into defense-related 
matters, yet we are more or less turning our backs on something 
that could consume each human being on this planet. We, 
perhaps, need to give that consideration, and perhaps coin the 
phrase that Ms. Woolsey used a while ago, maybe it is time for 
us to boogey.
    Chairwoman Biggert. Thank you for your comments. The 
gentleman from Georgia, Mr. Gingrey.
    Mr. Gingrey. Well, first of all, in response, maybe to 
follow up to what Mr. Lampson said, in comparing the cost and 
the priorities, I think those terrorists could kill us dead a 
whole lot quicker than some of these greenhouse gas effects, so 
maybe that is a part of it.
    Mr. Lampson. But not the whole Earth.
    Mr. Gingrey. My question, is guess, is to Dr. Benson. In 
regard to the CO<INF>2</INF> sequestration, I guess that seems 
to be the main focus of the hearing, and, you know, I realize 
that, you know, CO<INF>2</INF>, you put it down deep, and it is 
soluble in water, and a lot of the CO<INF>2</INF> would 
dissolve, but I wanted to ask you in regard to sites of 
sequestration where you are putting literally tons and tons of 
CO<INF>2</INF>, however deep it might be, under the Earth's 
surface, there is a certain amount of pressure that would 
develop even with the solubility of CO<INF>2</INF> in water, 
and would you have to worry a long-term about a site where 
there is a fault, a significant fault, as an example, in 
California, is there some potential at some point in time that 
we will push, we will make an island out of California if we 
were sequestering CO<INF>2</INF> in an area like that?
    Dr. Benson. Well, it turns out that faults often provide 
seals to oil and gas reservoirs, so just by virtue of existence 
of the presence of a fault does not mean that a site would not 
be a good storage site. In fact, you know, many of the best 
traps are located where you have a fracture and the sand get 
butted up against shale on the other side. So, you know, 
certainly, if you have a site that there is a fault there, you 
would want to characterize that that fault seals, rather than 
is open and leaks, and there are tests available today that are 
very applicable and useful for testing, those kind of things. 
So, you know, certainly, if there were an open fault, you know, 
that would need to be considered very carefully before you 
would store CO<INF>2</INF> there, but just because there is a 
fault doesn't mean you shouldn't do it.
    Mr. Gingrey. Anybody else wish to comment on that? Dr. 
Brown? No? Thank you, Madam Chairman.
    Chairwoman Biggert. The gentleman from Oregon, Mr. Wu. All 
right. Thank you. Just one last question, which is always 
tricky, because it usually is the one that is the hardest. Dr. 
Brown, how can the Federal Government act to eliminate the 
market failures that impede deployment of energy efficiency 
technologies?
    Dr. Brown. Well, first, I guess, the--we have got to get 
the prices. There are a number of externalities that are not 
incorporated into the price that we currently pay for energy, 
and that includes, of course, the criteria pollutants, but 
also, if you wanted a price for CO<INF>2</INF>, a price for 
national security, all of those, if included, would result in a 
price of energy which would far exceed what we currently pay. 
That is a market failure. There are other market failures. One 
that I use as an example often is the principal agent failure. 
That is the case where decisions are being made by one 
individual that affect the energy technologies that are going 
to be used by another individual. An example is the landlord 
and the tenant, or the individual who purchases the fleet of 
automobiles for a state agency, for those users to utilize, so 
you have principal agents, and the failures are numerous, but 
those are just two of them.
    Chairwoman Biggert. Do you have any idea which changes 
would make the greatest contribution to energy saving?
    Dr. Brown. I think getting the price right. A lot of----
    Chairwoman Biggert. The price is right, isn't that----
    Dr. Brown. Yeah. Right. There are many ways that that can 
be done, but I would put that at the top of my list.
    Chairwoman Biggert. Thank you. All right, again for Dr. 
Brown. What portion of your report's recommendations have been 
implemented?
    Dr. Brown. Now, what is the status of the Energy Bill 
today?
    Chairwoman Biggert. Very close, it is very close.
    Dr. Brown. Not many yet, but we are hopeful that some will 
have some sticking power and maybe be implemented.
    Chairwoman Biggert. Thank you. Before we bring this--the 
hearing to a close, I want to thank our panelists for 
testifying before the Subcommittee today. If there is no 
objection, the record will remain open for additional 
statements from the Members and for answers to any followup 
questions the Subcommittee may ask the panelists. Without 
objection, so ordered. The hearing is now adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Additional Material for the Record


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   Report on Responses to the Request for Information Regarding the 
             National Climate Change Technology Initiative
                       U.S. Department of Energy

    On November 19, 2002, a ``Request for Information and Statement of 
Interest'' (RFI) was issued by the U.S. Department of Energy (DOE) to 
explore the depth and breadth of interest in a potential future 
competitive solicitation for research on innovative climate change 
technologies. This RFI was issued in support of the President's 
National Climate Change Technology Initiative (NCCTI). The RFI closed 
on January 31, 2003.
    In brief, the RFI analysis revealed two benefits. First, the RFI 
process provided a valuable tool in evaluating and possibly expanding 
current agency R&D programs. It is possible that future RFIs can 
provide further ideas for improvements to existing programs. Second, 
the analysis revealed significant interest in participating in a NCCTI 
competitive solicitation program. At the same time, the RFI submittals 
raised a number procedural issues that will need to be addressed and 
resolved if an RFP is pursued. Better awareness of these issues can be 
expected to clarify and strengthen a future NCCTI competitive 
solicitation program.

Request for Information

    As announced in the RFI, as in reference to the NCCTI, the DOE 
requested information on and expressions of potential interest in a 
possible, future DOE competitive solicitation on research. If pursued, 
the research would explore concepts, technologies and technical 
approaches that could, if successful, contribute in significant ways 
to: (a) future reductions in or avoidances of greenhouse gas emissions; 
(b) greenhouse gas capture and sequestration (permanent storage); (c) 
capture and conversion of greenhouse gases to beneficial use; or (d) 
enhanced monitoring and measurement of greenhouse gas emissions, 
inventories and fluxes in a variety of settings.
    The RFI mentioned that, if pursued, the NCCTI competitive 
solicitation could involve the award of tens of millions of dollars in 
research grants or other forms of financial assistance for research 
over multiple years. The RFI said that, if pursued, the competitive 
solicitation would be open to all proposers in order to encourage the 
broadest possible participation.
    As a first step in considering this program, the DOE invited 
interested parties to submit a Statement of Interest, which would 
include identification of a point of contact and other information 
about the party. Parties were also encouraged to submit a brief outline 
of an idea, concept, technology or technical approach, that would be 
the subject of research and focus on the above-stated NCCTI objectives.

Summary of Responses

    DOE received 180 responses containing at least one proposed idea, 
concept, technology or technical approach, from a total of 79 different 
individuals, organizations or other entities. DOE received an 
additional 16 statements of interest, but with no submitted ideas. A 
summary of the RFI responses with ideas is provided below.

        <bullet>  180 responses (technology ideas) were received, 
        representing the interests or submissions of 79 different 
        organizations or responding entities;

        <bullet>  45 of the 79 entities were private sector;

        <bullet>  10 of the 79 entities were non-governmental 
        organizations (NGOs);

        <bullet>  11 of the 79 entities were universities;

        <bullet>  A number of entities were States or municipal 
        governments;

        <bullet>  Numerous additional entities (different from the 79 
        submitting) were mentioned in various responses as potential 
        partners, contributors or collaborators.

        <bullet>  An additional 16 entities, beyond the 79 noted above, 
        expressed interest in a future NCCTI competitive solicitation, 
        but did not submit a concept or technology.

Technical Review of the RFI Responses

    All 180 RFI responses with ideas were assigned for review to six 
working groups operating under the auspices of the multi-agency U.S. 
Climate Change Technology Program (CCTP). The six working groups 
broadly represented six technical areas: (1) energy production; (2) 
energy efficiency; (3) CO<INF>2</INF> capture and sequestration; (4) 
greenhouse gases other than CO<INF>2</INF>; (5) measuring and 
monitoring of greenhouse gases; and (6) supporting basic or strategic 
research. If concepts or technologies were cross-cutting in nature, or 
did not fit uniquely in one area or another, such concepts were 
assigned to multiple working groups, as appropriate.
    The resulting RFI reviews, in general, were limited to screening 
and initial assessments, intended to identify ideas that were relevant 
to the RFI criteria, innovative, and having overall technical merit. 
The evaluations were thorough, but not as rigorous as would be expected 
in a more formal review of responses to a Request for Proposals (RFP) 
where awards would be made under peer review.

Summary of Technical Review Findings

    The overall response (79 entities submitting a total of 180 
concepts) was considered reasonable, given that: (i) no funding was 
offered in the RFI; (ii) the announcement's 42-day open period spanned 
the Thanksgiving and winter holiday periods; and (iii) no advantage was 
conferred upon the respondent, vis-a-vis a future solicitation, from 
developing ideas and sending then in. Even so, the response should be 
considered light, compared to what might be expected if substantial 
funding were offered. Thus the findings summarized below should not be 
considered definitive or exhaustive. The technical review findings may 
be characterized as follows:

        <bullet>  25 of 180 RFI responses focused on program management 
        or decision support tools that might help focus R&D on climate 
        change technologies or related concepts.

        <bullet>  More than 120 of the RFI responses were integrative 
        in nature, or otherwise cut across two or more existing 
        research and development program areas.

        <bullet>  More than 120 of the RFI responses were rated ``high 
        in overall technical merit,'' vis-a-vis the goals or criteria 
        as stated in the RFI announcement.

        <bullet>  More than 90 of the RFI responses were assessed as 
        either falling within the scope of currently funded State or 
        federal R&D programs, or were consistent with such programs.

        <bullet>  More than 90 of the RFI responses were assessed as 
        either falling within the scope of currently funded private 
        sector R&D programs, or as consistent with such programs.

        <bullet>  More than 30 of the RFI responses were assessed as 
        representing ideas or technical areas that would not fall 
        within the scope of currently funded federal, State, or 
        privately funded R&D programs, if broadly considered.

        <bullet>  Less than 10 of the RFI responses were simultaneously 
        assessed as high in technical merit, responsive to the RFI 
        criteria, and unique or novel, that is, not easily fitting into 
        the scope of any existing R&D funding program, if broadly 
        considered.

    Although most of the 180 concepts submitted were assessed as both 
having ``high technical merit'' and being responsive to the RFI goals, 
few were found to fall outside the competitive purview of one or more 
of the known existing federal or privately funded R&D programs. The 
working groups concluded that most RFI responses would be appropriate 
for consideration for competition within the scope of existing R&D 
programs. The working groups were not able to determine from the 
information provide whether the submitted concepts would be 
sufficiently competitive to be awarded funding, compared to the 
universe of other concepts that would be competing for such funding.
    RFI responses that seemed appropriate for consideration within the 
scope of existing R&D programs were forwarded to the appropriate R&D 
programs for such consideration. The existence of some RFI responses 
that were evaluated high in technical merit, responsive to the RFI 
criteria, and sufficiently innovative, novel, cross-cutting or 
integrative in nature that they did not seem to fit easily into 
existing R&D funding programs, suggested that there may be some gaps in 
the existing R&D program structure, where a future NCCTI competitive 
solicitation might complement others in the larger scheme of a multi-
agency U.S. climate change technology R&D program.

Procedural Issues Identified

    Beyond the findings of the RFI response technical review, a number 
of procedural issues, or points of potential confusion, were 
identified. In the event that a future Request for Proposals (RFP) 
should go forward for a future NCCTI competitive solicitation, these 
issues would need to be clarified or resolved. The reviewers suggested 
a few potential solutions to some of these issues:

        <bullet>  Apparently, one of the greatest sources of confusion, 
        given the RFI's broad scope, was duplication with ongoing R&D 
        programs, and the reviewer's desire to avoid duplicate or 
        conflicting awards. As long as both sources of funding exist 
        (current programs and the NCCTI solicitation), and as long as 
        both are competing head-to-head with each other, extensive 
        coordination will be required among the NCCTI reviewers and the 
        existing R&D programs in order to avoid conflict or overlap.

        <bullet>  One solution might be to focus NCCTI research, 
        instead, on selected areas that differentiate themselves from 
        ongoing R&D, cut across multiple federal program mission areas, 
        or score high on innovativeness or novelty of approach, thereby 
        exploring new or novel areas of technology R&D not covered by 
        existing R&D programs.

        <bullet>  Another approach would be to encourage proposals with 
        integrated approaches for a more efficient use of research 
        dollars, for example, power production with sequestering 
        CO<INF>2</INF>, rather than separate proposals.

        <bullet>  Many of the RFI submittals identified an idea or an 
        R&D project that is already being accomplished by other 
        efforts. Truly innovative proposals are likely to be rare, 
        given that current R&D programs already have many and highly 
        interactive mechanisms for inviting, unearthing and pursuing 
        promising new research directions. At the same time, it is 
        possible that enhanced R&D along existing lines for some 
        technologies could have some accelerating effects, with 
        resulting beneficial impacts on reducing greenhouse gas 
        emissions. Thus, questions about the relationship between a 
        future RFP and an existing R&D program will need to be spelled 
        out clearly. Some sample issues follow:

                <bullet>  How will the RFP deal with the varying 
                degrees of overlap of new ideas with existing federal 
                R&D activities?

                <bullet>  Should a proposer be required to document how 
                a new proposal fits with current federal R&D efforts?

                <bullet>  How should innovation be defined and/or 
                rewarded?

                <bullet>  How should an idea be scored that suggests 
                R&D that is already funded under an existing program, 
                or that is closely related to or an extension of an 
                existing program, or that is a specific project that 
                could be funded under an existing program like the 
                Federal Energy Management Program or Building America?

        <bullet>  Many RFI responses proposed projects that would 
        demonstrate or deploy (extend the use of) existing technology 
        (i.e., develop green building designs, demonstrate energy 
        efficient buildings, or demonstrate use of CNG or H<INF>2</INF> 
        in fleet vehicles). So, another area of confusion arose from 
        questions about differences between R&D and demonstration 
        projects, and how each should be evaluated. A future RFP would 
        need to address this concern and, for example, clearly state 
        that the funding is for ``R&D'' for climate change technology 
        development, and not for demonstration projects, or 
        alternatively, if demonstration projects are desired, then 
        criteria would need to address how they will be treated, versus 
        R&D.

        <bullet>  Many RFI responses sought funding support for 
        commercialization of existing technologies, which is generally 
        regarded as a private sector responsibility, and not consistent 
        with the federal research mission. A future RFP would need to 
        state a clear position on this point stating, for example, that 
        commercialization of existing technologies are not within its 
        scope.

        <bullet>  Request information on state of development for the 
        technology. It may be helpful to apply the well defined 
        research categories of ``6.1--Basic Research, 6.2--Applied 
        Research, 6.3--Advanced Technology Development,'' as employed 
        in DOD research and development programs.

        <bullet>  Clarify the kinds of activities that would be most 
        appropriate and likely to gain federal support. If it is likely 
        that industry has sufficient motivation to pursue the research 
        for its own benefit, then additional support by the government 
        would not seem warranted.

    Other issues arose with respect to who is eligible or not eligible 
to respond to the RFP and be awarded a federal grant or contract. Would 
there be restrictions on non-U.S. firms, or other forms of governments? 
Some suggestions from the review include the following:

        <bullet>  Encourage participation and collaboration across 
        sectors (industry, university, and national laboratory), and 
        discourage individual investigations, as a means of enhancing 
        robustness.

        <bullet>  For truly novel, innovative (i.e., risky and far from 
        commercialization) basic or strategic research, a requirement 
        for industry cost-sharing or co-funding may be 
        counterproductive, as private investment may draw research to 
        more tangible or nearer-term focus, and discourage longer-term, 
        higher risk, but potentially higher payoff, ventures.

        <bullet>  Encourage collaboration with foreign investigators 
        (possibly patterned after the DOE-NE NERI or I-NERI), so that 
        the best ideas and best teaming arrangements, are available.

    A number of other suggestions emerged, provided below, for 
consideration as a means to clarify responder requirements or otherwise 
improve the structure and facilitate the review of a future RFP.

        <bullet>  Provide links to relevant R&D programs and published 
        technology roadmaps at all the agencies participating in the 
        CCTP, in order to assist investigators in accessing information 
        on related programs and technologies and improving their 
        proposals.

        <bullet>  Require the responder to identify the source of all 
        research funds being used on the proposed initiative. This will 
        help the reviewer with coordination among multi-agency 
        participants.

        <bullet>  Specifically require information as to whether or not 
        the proposed technology has been submitted elsewhere to other 
        U.S. Government funding programs.

        <bullet>  Request information on whether the technology is 
        envisioned to be available in the near-term or longer-term. The 
        NCCTI RFP should support a mix of innovative technologies and 
        technology-based solutions--some of which could be brought to 
        market quickly and others which require more sustained R&D over 
        years to decades.

        <bullet>  Require information on project size and the required 
        investment to achieve its objective.

        <bullet>  Request information on the applicability and GHG 
        benefits of the technology. It would be useful to have 
        information on the emission sources to which the technology is 
        to be applied, and the magnitude of the impact on greenhouse 
        gas stabilization that the proposed technologies are projected 
        to enable. Impact analysis and assessment would contribute to 
        the prioritization process within NCCTI.

        <bullet>  Provide guidelines to standardize basic information 
        provided regarding the principal and co-investigators, and 
        their affiliations, and the capabilities of the research team 
        and facilities.

    Finally, other issues arose about projects that might better fall 
under the scope or purview of the Climate Change Science Program 
(CCSP), rather than the CCTP. This also identified a need to clarify 
how cross-cutting (CCSP/CCTP) research should be addressed.

Technical Findings Identified

    Several responses focused on program management or decision support 
tools that might help focus R&D on climate change technologies or 
related concepts. While the majority of the abstracts met the criteria 
associated with the RFI and rated well with respect to the criteria, 
decision support tools may be needed to help prioritize and integrate 
the diverse technology R&D and aid in achieving the long- and short-
term missions of CCTP.
    With respect to longer-term technologies, technologies and 
practices that rely on scientific advances, including geo-engineering, 
precision use of advanced information technologies, and advanced bio-
products development, are still at points in their development where 
basic research and ``proof of concept'' demonstrations are priorities. 
Basic research questions also relate to the development and application 
of advanced technologies. For example, there are many opportunities for 
research in biotechnology (genomics, genetics, proteomics) that may aid 
in managing carbon. In addition, basic research is needed in 
establishing the interactions between efforts to improve carbon storage 
and nutrient cycling and potential positive and negative impacts on 
other environmental services.
    Most current and proposed R&D explore individual technologies. 
However, there are possible commonalities and synergisms among the 
technologies that lend themselves to cross-cutting research activities 
in some areas. Such possibilities need to be identified and pursued 
early. For example, many materials issues are similar across a number 
of technologies, particularly as we look toward advanced technologies 
that employ higher temperatures, and pressures. It would be highly 
desirable for some of the early NCCTI initiatives to focus on such 
cross-cutting R&D areas.
    Likewise, a number of technologies may be amenable to integrated 
implementation strategies. While implementation is largely not an R&D 
activity, there are some analytical issues that need to be addressed to 
determine compatibility of alternative energy production technologies, 
optimal configurations, and systems integration issues. These 
analytical activities are also appropriate to the NCCTI.
    Enabling technologies also need to be identified and analyzed. In 
particular, issues like land use and long-term availability of 
resources or feedstocks critical to a technology need to be examined. 
For example, resources and reserves of natural gas, supplies of bismuth 
for potential lead-bismuth nuclear technology, catalysts for chemical 
processes associated with energy production technologies, etc., are all 
critical to the long-term feasibility of some of the technologies. This 
is an area that has had only fragmentary attention to date and is 
worthy of analysis under the NCCTI.
    In some cases, infrastructure issues may also need to be addressed. 
This is particularly the case where an accelerated introduction of a 
technology may be desirable. Infrastructure issues which may be 
relevant include mining, fabrication, and construction facilities and 
capabilities. Little work has been done in these areas, particularly 
for advanced technologies, and NCCTI should initiate some studies, 
particularly to address accelerated introduction plans.
    In this increasingly global economy, energy production resource and 
infrastructure issues need to be examined on both a national and 
international basis. In some cases, sufficient national resources and 
infrastructure will be necessary to ensure national security. However, 
significant elements of our energy production infrastructure are likely 
to be imported. In those cases, we need to assure the adequacy of 
supply globally, considering also the competing global demands for the 
supply. Given the important of an adequate energy supply to national 
security and economic health, this is an important area for the NCCTI 
to consider.
    The NCCTI competitive solicitation may also wish to encourage 
proposals to assess how much the potential benefits of using different 
energy technology options, such as wind, solar, or sequestration might 
be affected by changes to a future climate, should they occur.
    Finally, the solicitation should clearly state that the scope of 
the RFP includes R&D on all greenhouse gases (GHGs), not just CO<INF>2</INF> 
or methane. Other gases include nitrous oxide, sulfur hexaflouride, and 
other chemicals with high global warming potential (GWP).

Complementarity Issues for a Future NCCTI Competitive Solicitation

    A number of RFI responses were evaluated as sufficiently 
innovative, novel, cross-cutting or integrative in concept to warrant 
further interest, yet did not seem to fit easily into existing R&D 
funding programs or the established federal R&D organizational 
hierarchies, or if they did, they seemed to fit only on the margins, 
and not likely to gain mainstream support. These responses were not 
necessarily the best developed RFI responses, but were among some of 
the more interesting, novel or unique concepts or applications. 
Although relatively small in number, these RFI responses suggest a 
number of gaps or potentially fruitful areas of R&D, as characterized 
below, where a future competitive solicitation might add value uniquely 
by complementing an otherwise robust federal program of ongoing R&D in 
climate change-related technology development.
    The following is a generalized list of areas for further 
consideration, if a NCCTI competitive solicitation program were 
redirected at complementing, rather than competing with, existing R&D 
programs. Currently, these areas are not as well represented in the 
existing R&D portfolio.

        <bullet>  Decision-support tools. Numerous RFI responses 
        proposed various analytical, assessment, software, modeling or 
        other quantitative methods for better understanding and 
        assessing the role of technology in long-term approaches to 
        achieving stabilization of concentrations in the atmosphere. 
        While individual R&D programs sponsor the development of such 
        tools, these are applicable mainly to their respective areas of 
        responsibility or technologies. There is no place where broad-
        based tools may be applied or integrated across all 
        technologies.

        <bullet>  Strategic research. Strategic research is basic 
        research applied to a particular problem or technological focus 
        area. Many existing agency research programs are either basic 
        or applied in their missions, and so restricted by their 
        appropriations. As a result, strategic research often finds no 
        specific program able or willing to explore novel concepts 
        along unconventional lines.

        <bullet>  Applied bio-engineering. As an example of strategic 
        research, one RFI proposed to search for or engineer unique 
        microorganisms both to produce hydrogen and sequester carbon 
        dioxide. Ideas such as this have not neatly fit into the basic 
        energy research programs of DOE's Office of Science (SC), as 
        they may be too applied, nor do they fit in the energy supply, 
        energy conservation, fossil energy or sequestration R&D 
        programs of DOE's applied R&D programs in FE, EE or NE, as they 
        are too basic and exploratory. The RFI analysis process enabled 
        DOE's Office of Science to examine this concept for inclusion 
        in its procurement strategy.

        <bullet>  Integrative concepts. Integrative concepts cut across 
        R&D program lines and attempt to combine technologies and/or 
        disciplines, and may promise some of the highest results, yet 
        often experience difficulty in finding funding support from any 
        of the areas. Integrative concepts present unique challenges 
        for program lines and are difficult to coordinate across 
        agencies or across traditional R&D program or mission areas.

        <bullet>  Novel concepts. Novel concepts, almost by definition, 
        do not have logical funding homes within the boundaries of 
        traditional R&D organizations. They may build on scientific 
        disciplines outside the routine or expected, may be unfamiliar, 
        or perhaps threatening to other approaches, can suffer poor 
        reviews by tradition-bound peers, or simply present too high of 
        a risk for regular, metric-monitored investments. Yet, novel 
        concepts can promise potentially valuable ways to reduce GHG 
        emissions, reduce GHG concentrations, or otherwise address the 
        effects of climate change, if pursued and explored. Somewhere 
        within the overall program support for climate change 
        technology R&D there needs to be means provided for funding and 
        exploring novel concepts not fitting within regular 
        appropriated R&D programs.

        <bullet>  Greenhouse gases other than CO<INF>2</INF>. Beyond 
        CO<INF>2</INF>, there are anthropogenic emissions of a number 
        of other greenhouse gases, including methane, nitrous oxide, 
        and several high-global warming potential (GWP) gases. In the 
        near-term, emissions of such gases may be more amenable to 
        capture and control than some of the major sources of 
        CO<INF>2</INF>. For some of these gases, near-term 
        technological advances could result in rapidly attainable and 
        cost-effective GHG emission reduction strategies. Although 
        other agencies, such as USDA or EPA, have the agency-leads on 
        inventorying or mitigating emissions of various sources or 
        these other GHGs, technology R&D programs to address 
        opportunities in these areas are needed.

        <bullet>  Measuring and monitoring systems. Accurate 
        measurements underlie many climate related actions and 
        strategies for reducing GHG emissions. Improving the ability to 
        measure and monitor all important greenhouse gases (GHGs), 
        including their emissions, inventories and fluxes, across a 
        variety of media (soil, water, air) and spatial (local, 
        regional) boundaries, is a top priority. RFI responses included 
        innovative new systems for remote and continuous monitoring of 
        GHGs (not just CO<INF>2</INF>). These included detection and 
        location of GHG leaks.

        <bullet>  Feedstocks and materials. Often neglected in the 
        usual emphasis of R&D on energy are the more routine economic 
        activities of heavy industry, mining, manufacturing, 
        agriculture and construction; which require resources, 
        materials, feedstocks and other material inputs to their 
        production processes, all of which have associated GHG 
        emissions in their resource cycles. One RFI concept suggested 
        systematic analytical methods to identify, review and select 
        promising areas for new technologies to be applied to reduce 
        such emissions, capture carbon, or otherwise substitute 
        processes that result in little or no net GHG emissions.

        <bullet>  Enabling Technologies. Enabling technologies 
        contribute indirectly to the reduction of GHG emissions, by 
        enabling the development, deployment and use of other important 
        technologies that reduce GHG emissions. A modernized 
        electricity grid, for example, is seen as an essential step 
        enabling the deployment of more advanced end-use and 
        distributed energy resources needed for reducing GHG emissions.

        <bullet>  Exploratory Concepts Augmenting Existing Programs. 
        Although DOE has well established R&D programs in almost all 
        areas of energy, from end-use energy efficiency, to energy 
        supply, a number of RFI concepts suggest that there may be 
        worthy areas found outside the mainstream focus of current R&D 
        emphasis. Reasons for this may be because the field is broad 
        and the programs need to be more narrowly focused to be 
        productive. The industry cost-sharing requirements may 
        discourage risk taking and long-term ventures. The extensive 
        degree of collaborated processes may result in consensus 
        building around central ideas, rather than on outliers. In DOD, 
        extensive R&D funding is applied, yet one of the most 
        intriguing elements of DOD's overall research program is DARPA, 
        designed to augment and explore novel, but potentially high-
        payoff technology concepts.

Conclusion

    In conclusion, the RFI responses indicated that there is broad 
interest in participating in a NCCTI competitive solicitation program, 
should one go forward. The RFI process also provided a valuable tool in 
evaluating and possibly expanding current agency R&D programs. A wealth 
of information was provided among the submitted RFIs, and many of these 
can serve well as test cases for a future RFP or RFI process. At the 
same time, the RFI submittals raised a number procedural issues that 
will need to be addressed and resolved if an RFP is pursued. Better 
awareness of these issues can be expected to clarify and strengthen the 
focus and intents of a future NCCTI competitive solicitation program 
undertaken in support of the President's National Climate Change 
Technology Initiative.

</pre></body></html>
